<html>
<title></title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                
                         [H.A.S.C. No. 116-21]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2020

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

  SUBCOMMITTEE ON INTELLIGENCE AND EMERGING THREATS AND CAPABILITIES 
                                HEARING

                                   ON

                  FISCAL YEAR 2020 BUDGET REQUEST FOR

                     DEPARTMENT OF DEFENSE SCIENCE

                        AND TECHNOLOGY PROGRAMS:

                     MAINTAINING A ROBUST ECOSYSTEM

                       FOR OUR TECHNOLOGICAL EDGE

                               __________

                              HEARING HELD
                             MARCH 28, 2019
                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-862                  WASHINGTON : 2020                    
          
--------------------------------------------------------------------------------------                                   
  


   SUBCOMMITTEE ON INTELLIGENCE AND EMERGING THREATS AND CAPABILITIES

               JAMES R. LANGEVIN, Rhode Island, Chairman

RICK LARSEN, Washington              ELISE M. STEFANIK, New York
JIM COOPER, Tennessee                SAM GRAVES, Missouri
TULSI GABBARD, Hawaii                RALPH LEE ABRAHAM, Louisiana
ANTHONY G. BROWN, Maryland           K. MICHAEL CONAWAY, Texas
RO KHANNA, California                AUSTIN SCOTT, Georgia
WILLIAM R. KEATING, Massachusetts    SCOTT DesJARLAIS, Tennessee
ANDY KIM, New Jersey                 MIKE GALLAGHER, Wisconsin
CHRISSY HOULAHAN, Pennsylvania       MICHAEL WALTZ, Florida
JASON CROW, Colorado, Vice Chair     DON BACON, Nebraska
ELISSA SLOTKIN, Michigan             JIM BANKS, Indiana
LORI TRAHAN, Massachusetts
                Bess Dopkeen, Professional Staff Member
               Eric Snelgrove, Professional Staff Member
                         Caroline Kehrli, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Chairman, Subcommittee on Intelligence and Emerging Threats and 
  Capabilities...................................................     1
Stefanik, Hon. Elise M., a Representative from New York, Ranking 
  Member, Subcommittee on Intelligence and Emerging Threats and 
  Capabilities...................................................     4

                               WITNESSES

Geurts, Hon. James F., Assistant Secretary of the Navy for 
  Research, Development and Acquisition, Department of the Navy..     8
Griffin, Hon. Michael D., Under Secretary of Defense for Research 
  and Engineering, Office of the Secretary of Defense............     5
Jette, Hon. Bruce D., Assistant Secretary of the Army for 
  Acquisition, Logistics and Technology, Department of the Army..     6
Roper, Hon. William B., Jr., Assistant Secretary of the Air Force 
  for Acquisition, Technology and Logistics, Department of the 
  Air Force......................................................     9

                                APPENDIX

Prepared Statements:

    Geurts, Hon. James F.........................................    60
    Griffin, Hon. Michael D......................................    43
    Jette, Hon. Bruce D..........................................    53
    Langevin, Hon. James R.......................................    39
    Roper, Hon. William B., Jr...................................    71

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Banks....................................................    96
    Mr. Brown....................................................    94
    Ms. Houlahan.................................................    94
    Mr. Langevin.................................................    93
    Mr. Waltz....................................................    96

Questions Submitted by Members Post Hearing:

    Mr. Conaway..................................................   101
    Mr. Scott....................................................   102
                  
                  
                  FISCAL YEAR 2020 BUDGET REQUEST FOR

                   DEPARTMENT OF DEFENSE SCIENCE AND

               TECHNOLOGY PROGRAMS: MAINTAINING A ROBUST

                  ECOSYSTEM FOR OUR TECHNOLOGICAL EDGE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
     Subcommittee on Intelligence and Emerging Threats and 
                                              Capabilities,
                          Washington, DC, Thursday, March 28, 2019.
    The subcommittee met, pursuant to call, at 11:06 a.m., in 
room 2212, Rayburn House Office Building, Hon. James R. 
Langevin (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE 
 FROM RHODE ISLAND, CHAIRMAN, SUBCOMMITTEE ON INTELLIGENCE AND 
               EMERGING THREATS AND CAPABILITIES

    Mr. Langevin. The subcommittee will come to order. I want 
to welcome everyone to today's hearing on the fiscal year 2020 
President's budget request for the Department of Defense 
science and technology programs. I am pleased that for the 
first time in many Congresses we have the highest S&T [science 
and technology] leadership from the Department providing 
testimony. By having the top leadership, this hearing aims to 
elevate the discussion of S&T to the same level of importance 
as to how many fighters, ships, and satellites the Department 
is buying.
    The Department's S&T ecosystem is complex and comprises 
agencies; offices; laboratories; federally funded research and 
development centers; university affiliated research centers; 
academic partnerships; test and evaluation entities; and 
partnerships with the private sector, including small 
businesses. This S&T ecosystem is charged with delivering the 
best capabilities to the warfighter in the near, mid and long 
term.
    For such an important portfolio, the fiscal year 2020 
President's budget request totals $14.5 billion, which is only 
2.7 percent of the Department's base budget and only 3.2 
percent above the fiscal year 2019 requested funding level. 
Adjusted for inflation, the fiscal year 2020 request is only 1 
percent higher, despite the increasing cost escalation of 
highly specialized technical labor, like scientists and 
engineers with advanced degrees and Ph.D.s.
    To say it another way, normalizing for inflation and labor 
cost escalation, this S&T budget has effectively been shrinking 
for years. And this is the budget that must lay the groundwork 
for today, for our future technological edge in the next 10 to 
20 years.
    I also want to point out that, unlike the shrinking of the 
S&T request, the Department's fiscal year 2020 investment in 
advanced component development and prototypes funding grew by 
5.8 percent from the fiscal year 2019 request, or by 27 
percent. Although I strongly support efforts to get new 
technologies across the ``valley of death'' into the hands of 
our service members as soon as possible, we must be cognizant 
of the fact that we must also invest in the long-term basic and 
early-stage applied research that will allow for revolutionary 
advancements down the line.
    In the past three National Defense Authorization Acts 
alone, Congress has granted almost two dozen authorities to 
improve the Department's S&T workforce, facilities, and 
infrastructure to champion inhouse innovation for the future of 
force modernization, warfighting, operational concepts, and 
acquisition. I remain disappointed that many of those 
authorities have gone underutilized or unused by the 
Department. This is also hard to reconcile with the National 
Defense Strategy, which highlights long-term strategic 
competition with China and Russia and the need for an 
unparalleled national security innovation base. It is no secret 
that China is stealing our intellectual property to further 
their objective to be a research and engineering powerhouse and 
compromise our warfighting edge. Make no mistake about it, 
however, China is not the only nation conducting these types of 
activities. China is, though, one of the few state actors that 
has coupled such tactics with considerable investments and 
resources behind a national strategy that involves a whole-of-
government effort and leverages society to promote indigenous 
innovation. Yet the President's budget request decreases S&T 
and R&D [research and development] funding across the executive 
agencies, including the Department of Energy's Office of 
Science, and the National Institute of Standards and 
Technology, and the National Science Foundation.
    If the U.S. is to remain a global leader in technology, we 
cannot simply play defense. We must also play offense. 
Investments in science and research and other development 
efforts across the whole of government are necessary and vital 
to maintaining a technological edge.
    So, beyond the R&D specific funding, we must also invest in 
STEM [science, technology, engineering, and math] education, 
programs to develop junior talent into future tech leaders, and 
implement policies that promote a sound economic, political, 
and strategic environment on U.S. soil where global 
collaboration, discovery, innovation in public institutions and 
industry can thrive.
    I recognize that the open dialogue and debate of academia 
can be anathema to the secrecy we rely on in the Department of 
Defense. But we must also recognize and embrace the competitive 
advantage our free society gives us to out-innovate and develop 
better products faster than anyone else in the world.
    Setting ourselves apart from our strategic competitors also 
means abiding by our American values and keeping our policy as, 
or more, developed than the technology itself.
    The functional work for the current understanding of 
artificial intelligence done in the 1950s and 1960s was funded 
by DARPA [Defense Advanced Research Projects Agency] and the 
Office of Naval Research and aided by the convening power of 
universities. Now, we have been working on this technology for 
over half a century. Yet, in the John S. McCain 2019 NDAA 
[National Defense Authorization Act], Congress had to create a 
National Security Commission on Artificial Intelligence to 
expedite the policy, strategy, and implementation plan that 
absolutely must be thought through for our Nation to 
effectively and ethically use these capabilities. For AI 
[artificial intelligence] and for each of the other seven rapid 
technological advancements outlined in the NDS [National 
Defense Strategy], I am looking to the Department to lean 
forward on strategically developing policies on how we should 
use and deploy those future technologies and how these emerging 
capabilities will contribute to our new national strategies--
new security strategies. Such effort is especially important 
with hypersonics and directed energy, which present a myriad of 
policy and political considerations and challenges.
    Finally, I must emphasize that we will not attain the 
technological edge we need if we refuse to take risks in our 
R&D portfolio and if we do not empower risk-takers who are 
willing to push the boundaries on innovation. I realize that 
this will not come easily for the Department of Defense because 
the overriding culture is one of never failing. After all, in 
many aspects of the Department's mission, failure means people 
will die. However, in the S&T space, an attitude that 
conservative means we will never conceive of the technological 
leaps that will ensure our warfighters never go into a fair 
fight. It is incumbent upon the leadership in the Department to 
avoid perpetuating an overly conservative culture in the S&T 
enterprise. And I hope to hear from our witnesses today what 
they are doing to encourage reasonable risk-taking. In turn, so 
long as the Department is transparent about such failures, 
Congress and this subcommittee in particular must be willing to 
provide top cover for those that fail fast, fail smart, fail 
forward, and internalize the lessons learned from those 
failures.
    So, before us today we have the services' technology and 
acquisition executives. These individuals must divide their 
attention, creating--fielding the best technology to the 
warfighters as quickly and as effectively and efficiently as 
possible in the near and the mid term and protecting the 
scientists and innovators working on the test--the next 
generation of S&T that will enable the Department to keep its 
technological edge over the long term.
    In section 901 of the fiscal year 2017 NDAA, Congress split 
the former Under Secretary of Acquisition, Technology, and 
Logistics into two and created the Under Secretary of Defense 
for Research and Engineering [R&E] to empower the Department 
leadership to drive towards better innovation, advancing 
science and technology, and reducing risk intolerance in the 
pursuit of new technologies.
    Dr. Griffin, the first USD [Under Secretary of Defense] R&E 
since its charge, is the chief technology officer for the 
Department and is responsible for the research, development, 
and prototyping activity across the DOD [Department of Defense] 
enterprise. He is mandated with ensuring technological 
superiority for the Department of Defense.
    Dr. Bruce Jette, the Assistant Secretary of the Army for 
Acquisition, Logistics and Technology; Mr. James ``Hondo'' 
Geurts, the Assistant Secretary of Navy for Research, 
Development, and Acquisition; and Dr. Will Roper, Assistant 
Secretary of the Air Force for Acquisition, Technology and 
Logistics are the three service acquisition executives 
responsible for executing and overseeing the services' 
research, development, and acquisition activities. So I welcome 
you all here today.
    I look forward to hearing from our witnesses on the fiscal 
year 2020 S&T request and note that following this discussion, 
we will continue in a closed, classified, follow-on discussion 
with representation across the spectrum of the S&T ecosystem--
the Defense Advanced Research Projects Agency, the Department's 
laboratories and academic partnerships, the Strategic 
Capabilities Office, and the Defense Innovation Unit.
    So, with that, I will now turn it over to Ranking Member 
Stefanik for her remarks.
    [The prepared statement of Mr. Langevin can be found in the 
Appendix on page 39.]

STATEMENT OF HON. ELISE M. STEFANIK, A REPRESENTATIVE FROM NEW 
YORK, RANKING MEMBER, SUBCOMMITTEE ON INTELLIGENCE AND EMERGING 
                    THREATS AND CAPABILITIES

    Ms. Stefanik. Thank you, Chairman Langevin.
    And thank you to the witnesses for being here today.
    I want to stress how important our investment in science 
and technology and the innovation ecosystem is to our national 
security. The National Defense Strategy frames the current 
security environment as one of, quote, rapid technological 
advancements that is changing the character of war [end quote]. 
Now, more than any time in recent history, our military 
superiority is determined by our technological superiority. We 
are entering a new era of strategic competition where our 
ability to harness the power of our innovation ecosystem is 
being challenged by our adversaries.
    I am concerned that our S&T investments represent an 
alarmingly small percentage of our overall defense budget and a 
shrinking percentage of our total RDT&E [research, development, 
test, and evaluation] budget and at the same time that our 
adversaries are significantly increasing their S&T spending.
    While I am encouraged by the Department's investment in 
near-term advanced component development and prototyping, this 
cannot come at the expense of DOD's investment in our future. A 
properly resourced S&T enterprise reduces risk and 
technological surprise and, when properly executed, can 
generate disruptive new technologies that transform the way the 
Department does business, deters conflict, and wages war.
    I also want to highlight the importance of basic research 
to our future military capabilities. In fact, at a hearing I 
chaired in December on artificial intelligence, Dr. Lisa Porter 
cited DOD's 40 years of funding of AI basic research as the 
single most important factor for why we still maintain a slight 
lead over China's AI capabilities. As the pressure grows to 
accelerate and apply new technologies to today's problems, we 
must continue to balance this with the investment in future 
R&D. Any degradation in our future R&D will put the U.S. at a 
competitive disadvantage 10 to 20 years from now and weaken the 
bench of domestic science and technology expertise, which is 
already, as we know, in very short supply.
    Now more than ever, our science and technology enterprise 
plays a strategic role that is fundamental to our national and 
economic security. We must invest in it, and we must also 
protect it. Industrial espionage, cyber theft on a massive 
scale, illicit technology transfer, and foreign influence on 
our campuses are just a few of the malicious practices that our 
adversaries, most notably China, are using to undermine our 
national and economic security.
    Our universities, service laboratories, research and 
development centers, and pioneering small businesses are 
particularly vulnerable in our democratic and open society. We 
must do more to educate, inform, and protect our defense 
innovation ecosystem from these threats or we run the risk of 
arming our adversaries with technologies they will use against 
us in future conflict.
    Finally, we cannot allow our own bureaucracy to constrain 
the services from acquiring new technologies or the talent 
needed to implement these breakthroughs. Congress has made 
strides over the last several years to provide flexibility to 
the Department in hiring, funding, and sustaining our science 
and technology enterprise. I am particularly interested in 
understanding how these authorities are being utilized and what 
more we can do to improve our defense innovation ecosystem.
    Thank you again to our witnesses here today, and I yield 
back to the Chair.
    Mr. Langevin. Thank you, Ranking Member Stefanik. I want to 
thank you for your remarks.
    And we will now hear from our witnesses, and then move to 
the question-and-answer session.
    With that, I would like to now recognize Secretary Griffin 
for an opening statement.

   STATEMENT OF HON. MICHAEL D. GRIFFIN, UNDER SECRETARY OF 
 DEFENSE FOR RESEARCH AND ENGINEERING, OFFICE OF THE SECRETARY 
                           OF DEFENSE

    Secretary Griffin. Thank you. Chairman Langevin, Ranking 
Member Stefanik, and members of this subcommittee, I want to 
thank you for the opportunity to discuss the ways in which we 
are advancing defense modernization in response to the threats 
posed by our adversaries. I have a few brief opening remarks. I 
have submitted my written testimony. I would like my written 
testimony to be entered into the record, if you so approve.
    Mr. Langevin. Without objection.
    Secretary Griffin. Thank you.
    I don't have to explain to this committee the threats that 
we face from Russia and China. Our adversaries have self-
declared, and our only choice is to respond appropriately or to 
cede the primacy of the rules-based order that the United 
States established in the aftermath of World War II and has 
nurtured for now three full generations.
    Congress has paid very careful attention to these 
existential threats by our adversaries and has taken action to 
meet them. Through authorization, law, and funding, you have 
done your part to address these challenges, and we thank you 
for that support.
    For our part, we must work to change the processes, 
culture, and investment decisions of the DOD to regain and 
maintain the technical dominance that deters our adversaries. 
It is the role of the Under Secretary of Defense for Research 
and Engineering, working with the service acquisition 
executives who are here today, to align the Department's 
investment portfolio to that end.
    The 2018 National Defense Strategy outlines a clear path to 
the technical advantage we seek. It prioritizes hypersonics, 
directed energy, space, autonomy, cybersecurity, quantum 
science, microelectronics, artificial intelligence, 
biotechnology, machine learning, network command and control 
and communication. This is a smorgasbord of items; all are 
important. To pursue these priorities, the President's fiscal 
year 2020 budget includes $14.1 billion for cross-department 
science and technology.
    Our request for--as one example of what we are doing with 
this funding, our request for $2.6 billion for hypersonics in 
fiscal year 2019 and our request for $11.2 billion over the 
next 5 years will allow us to increase flight testing and field 
operational capability years earlier than we had previously 
planned. DARPA continues to build on work begun almost 60 years 
ago with its $2 billion multiyear AI Next campaign.
    To respond to the adversarial activity we observe today by 
China and Russia in space, the Department has created the Space 
Development Agency to design and field critical space 
technologies more rapidly than has been the case recently. 
These are just a few of the ways in which we are pursuing 
defense modernization.
    We will not succeed by fighting tomorrow's conflicts with 
yesterday's weapons. It is not our goal merely to match those 
who reject the values we espouse and the freedoms we protect. 
Instead, we are working to build and sustain a level of 
dominance so overwhelming that no adversary will start a fight 
because they know they will lose. That is our goal.
    Thank you.
    [The prepared statement of Secretary Griffin can be found 
in the Appendix on page 43.]
    Mr. Langevin. Thank you, Secretary Griffin.
    Now Secretary Jette is recognized.

 STATEMENT OF HON. BRUCE D. JETTE, ASSISTANT SECRETARY OF THE 
 ARMY FOR ACQUISITION, LOGISTICS AND TECHNOLOGY, DEPARTMENT OF 
                            THE ARMY

    Secretary Jette. Thank you. Chairman Langevin, Ranking 
Member Stefanik, and distinguished members of the subcommittee, 
thank you for the opportunity to appear before you to discuss 
the U.S. Army's program for science and technology for fiscal 
year 2020.
    The subcommittee's vital role in supporting Army S&T 
ensures the U.S. Army shall continue to modernize to meet 
future readiness requirements to encounter emerging and future 
threats. As Secretary Esper discussed in testimony Tuesday of 
this week, Army's Futures Command was formed to define the 
operational vision for multidomain operations; identify the 
technology requirements near, mid, and far; and to provide 
management of the technology enterprise. Your demonstrated 
commitment to our program was clear in your support of our 
fiscal year 2019 budget submission for $2.3 billion in S&T, 
which represented a stable inflation-adjusted growth and laid 
the foundation for closing critical technology gaps. Congress 
added $1.3 billion, allowing us to advance even further and 
faster as we focused on those technologies outlined in the NDS, 
some of which Dr. Griffin just mentioned, which will provide a 
decisive overmatch.
    Thank you for your support and thank you for passing the 
budget in time for the fiscal year. The Army's fiscal year 2020 
budget request for $2.4 billion S&T again remains inflation-
growth protected. Approximately 83 percent is aligned with the 
Army's six modernization priorities focused on maturing 
technology, reducing program risk, developing prototypes to 
better define affordable and achievable requirements, and 
conduct experimentation with soldiers to refine new operational 
concepts.
    The Army's 12,000 civilians and scientists are critical 
assets in identifying, developing, and demonstrating 
technologies, and leveraging more commercially based research, 
and executing military-unique research. Through NDAA 
authorities, we have implemented a number of efforts to build, 
enhance, and retain our workforce, for which I would also like 
to thank you.
    The Army relies on its laboratories to foster innovation to 
help transition basic research. The laboratories directly 
support military operations through various services and 
limited product development and production. State-of-the-art 
facilities are imperative to the success of Army basic, 
applied, and advanced technology development and research.
    Chief among the reforms is the new intellectual property 
[IP] policy, which fosters greater communication with industry, 
researchers, and entrepreneurs early in the process, clarifying 
our data requirements and, I would say, addressing some of the 
concerns of protecting the IP.
    Having patents in IP myself as a small entrepreneurial 
business owner only a year and a half ago, I know the important 
role IP plays in the ability to leverage the broader spectrum 
of cutting-edge technologies out there. With great support from 
the Secretary, we also are focusing on talent management in 
both our military and civilian workforces. Our laboratory 
system has been leveraging those authorities you provided to 
recruit and retain top talent to keep the Army on the cutting 
edge. Grants, when combined with such efforts as open campus 
and industry outreach programs, have expanded the pool of 
exceptional talent, to include 18 Nobel Prize winners and most 
recently the 2018 Nobel Prize in chemistry, Dr. Frances Arnold.
    The Army continues to benefit from the many additional 
programs and has extended its outreach to nontraditional 
partners.
    Thank you again for strong support for the Army's programs, 
the authorities you provided, and the opportunity to discuss 
Army S&T. I look forward to your questions.
    [The prepared statement of Secretary Jette can be found in 
the Appendix on page 53.]
    Mr. Langevin. Thank you, Secretary Jette.
    Secretary Geurts, you are recognized for 5 minutes.

 STATEMENT OF HON. JAMES F. GEURTS, ASSISTANT SECRETARY OF THE 
 NAVY FOR RESEARCH, DEVELOPMENT AND ACQUISITION, DEPARTMENT OF 
                            THE NAVY

    Secretary Geurts. Chairman Langevin, Ranking Member 
Stefanik, and distinguished members of the subcommittee, thanks 
for the opportunity to appear before you today to address the 
Department of the Navy's science and technology efforts and how 
they support both the National Defense Strategy and, more 
importantly, our sailors and Marines.
    It is a real exciting time for science and technology 
ecosystem, and it's truly my honor to be here to represent all 
of them with you today.
    I have a few brief opening comments, and then I request my 
full statement be entered into the record.
    Mr. Langevin. Without objection.
    Secretary Geurts. The Navy's fiscal year 2020 budget 
request includes $2.3 billion in basic and applied research, 
which represents a key enabler to ensure the Department of the 
Navy maintains and expands its comparative overmatch against 
our competitors. It maintains our strong commitment to science 
and technology to further our advantage for our sailors and 
Marines.
    I would like to thank the subcommittee and Congress for 
passing the fiscal year 2019 budget on time. On-time receipt of 
the full budget allowed us to expedite the delivery of 
technology, lethality, and readiness to our sailors and Marines 
while achieving cost savings through efficient contracting. It 
also helped us accelerate our contracts through a broad network 
of science and technology partners in the ecosystem, including 
academia and small businesses, all of whom suffer 
disproportionately when we go into a continuing resolution 
period.
    I would also like to thank Congress for the wide range of 
science and technologies authorities it has provided the 
Department of the Navy. Authorities such as section 233 have 
allowed us to reduce our contracting timeline by over 27 
percent in the first year alone and saved us over 154,000 
processing days.
    Section 219 authorities have allowed us to invest an 
additional $250 million annually in science and technology 
workforce development programs, basic and applied research, 
technology transition, and facility revitalization. These 
authorities are remarkable and are really making a difference 
to ensure we can both recapitalize our capital assets as well 
as focus on our priority, which are our people.
    For the 18th year in a row, the Navy has led all government 
agencies in the number of patents, thanks largely to these 
authorities.
    As we continue to leverage these authorities and increase 
our iteration speed, we are also executing innovative and 
sustainable business and architectural strategies so that the 
discoveries made in S&T have a quick, fast lane to get deployed 
to the field. Ensuring this clear fast lane from discovery to 
deployment allows us to harness the amazing science and 
technology discoveries into rapidly fielded capabilities so we 
can maintain and grow our advantage.
    Winning in a great competition requires us to maximize all 
the assets we have and derive the most value we can from the 
taxpayers' dollars. I would like to recognize the strong 
collaboration and teamwork we have achieved across the services 
and with Dr. Griffin. We are working very closely together, 
learning from each other, removing redundancies, and allowing 
us to accelerate capabilities to the field for all of our 
services.
    Thanks for the strong support this subcommittee has always 
provided our sailors and Marines. And thanks for the 
opportunity to appear before you today. I look forward to 
answering your questions.
    [The prepared statement of Secretary Geurts can be found in 
the Appendix on page 60.]
    Mr. Langevin. Thank you, Secretary Geurts.
    Dr. Roper, you are now recognized.

STATEMENT OF HON. WILLIAM B. ROPER, JR., ASSISTANT SECRETARY OF 
   THE AIR FORCE FOR ACQUISITION, TECHNOLOGY AND LOGISTICS, 
                  DEPARTMENT OF THE AIR FORCE

    Secretary Roper. Chairman Langevin, Ranking Member 
Stefanik, and members of the committee, thank you very much for 
holding a hearing on this very important topic.
    Mr. Chairman, you hit it on the head: Science and 
technology needs to be more important to us if we are going to 
keep the military edge that we have enjoyed from the last 
century into this one.
    I have prepared a written statement. I ask that it be 
entered into the record, but I am just going to give some brief 
oral remarks, if that is okay.
    Mr. Langevin. Without objection.
    Secretary Roper. Mr. Chairman, preparing for an S&T hearing 
is really good for the soul. It gives you a chance to drill 
down to what people are doing in our laboratories and in small 
business work. It is amazing to see the broad array of ideas 
that are being cultivated by our scientists and engineers. And 
it makes you excited about what the future is going to be for 
the Air Force.
    A lot of the technology areas you know, hypersonics and 
directed energy and space, we talk about these a lot, and they 
are critically important to us. But it is fun to discover some 
things you didn't know, like the Air Force is looking at bio-
inspired materials that will let us make sensors inspired by 
geckos' ears, making them smaller and more compact or that we 
are using centuries-old ideas about origami to make antennas 
that can fold up and deploy in space, cool ideas that are being 
developed across the country. And these are just a few of the 
things that I enjoyed seeing in my prep.
    Our science and technology budget is at $2.8 billion for 
this year, up 6 percent from last. We certainly hope to do 
better in the future, but this shows the commitment that the 
Air Force has to maintaining investment in science and 
technology so that the future Air Force remains dominant.
    Our Secretary is conducting a full review of science and 
technology in her 2030 study. We expect the results will be 
announced in the next couple of weeks. But expect sweeping 
reforms in how we address this critical part of the Air Force.
    Everyone has hit in this opening part of the hearing the 
most important thing we have to bring to this portfolio, and 
that is a competitive mind-set. This is not broadcasting seeds 
that we can't carefully tend. This must be the place where we 
grow technologies that our future airmen and the services who 
rely upon them will depend upon. We must treat it more 
strategically and make each day count. We have to compete for 
talent. And this subcommittee and Congress have given us the 
authorities to do that, but we need to use them more 
aggressively. Whether it is direct hire authority or direct 
hire for STEM, enhanced pay authority, the Air Force has gotten 
out of the starting blocks using them, but we need to fully use 
the authority to make sure that our laboratories are staffed by 
people that are world leading.
    But we can't just compete inside our laboratory walls. We 
need to get outside of them. We are part of a much broader 
technology ecosystem. We are expanding our work with 
universities, having fully embedded laboratory personnel 
onsite, using the university as a place that conducts research 
just as if it was part of a government facility. Universities 
like Purdue have helped us on hypersonics, creating higher Mach 
wind tunnels where we can do cutting-edge research.
    New Mexico Institute of Mining and Technology is working 
with us on electronic warfare, and we are in discussions with 
MIT [Massachusetts Institute of Technology] on an AI center so 
that we leverage the best that universities bring.
    We have to acknowledge that the world is changing. 
Technology is not being developed just inside of government 
facilities. We have to understand that universities, as well as 
commercial startups, play an increasingly larger role in this 
ecosystem. We have focused very hard this year on making it 
easy for tech innovators to work with us, lowering the 
contracting time from months down to being able to have a 
company pitch to us, approve their idea, put them on contract, 
and pay them in less than 15 minutes. We have to have 
competitive speed, given the competition for ideas in the 
technology world.
    But it is not just the kinds of technologies you may think 
about--AI, bio--that [we are] are seeing. Small business can 
now play an increasing role in high-end technology development. 
One of our small businesses has been awarded the first X-plane 
designation ever given to a small business. The X-60 Alpha, 
which is a reusable hypersonic test bed, will allow us to 
collect better data to infuse back into fundamental research. 
Pretty awesome a small business is doing that for us.
    We also have to compete ideas. There are so many 
technologies that could change the future of military: AI, 
autonomy, quantum, directed energy. So we need to make sure 
ideas are not just peanut-buttered across everything but are 
strategically placed on capability areas that will be war-
winning. We have created new programs, like SkyBorg, to make 
artificial intelligence real, not just a laboratory 
demonstration, fieldable, usable AI.
    We are working on collaborative weapons so that we get the 
benefit of networking that so many of us experience in our 
everyday lives, and there are many more examples that I am sure 
we will discuss today.
    Ranking Member Stefanik, you used a really good word in 
your opening remarks. You used the word ``ecosystem.'' And it 
is a nice-sounding word, but if you think about it, an 
ecosystem is not a very hospitable place. It is people 
competing for scarce resources that can be used by all. We need 
to think of ourselves as part of an ecosystem where we can play 
a valuable role to universities and businesses and government 
facilities in this country but where those same technologies 
can be enjoyed by our adversaries and used against it. And it 
has to be our sacred duty to plant seeds in today's budget that 
will be reaped by those that come after us. Thank you.
    [The prepared statement of Secretary Roper can be found in 
the Appendix on page 71.]
    Mr. Langevin. I thank all of our witnesses.
    We are going to questions now and then followed by the 
closed session.
    My first question is for all of our witnesses, the 
Department has advertised that this is the largest R&D--RDT&E 
budget in some time. And yet the S&T request that we are here 
to talk about today, which includes activities in 6.1, 6.2, and 
6.3, has effectively decreased in buying power. And S&T is seen 
as the source of future innovations essential to the United 
States ability to compete with near-peer adversaries. If 
adjusted to account for inflation and highly skilled labor cost 
escalation for scientists and engineers, then if you look at 
it, the Department has been on an overall downward trend in its 
S&T budget.
    Conversely, the Department's fiscal year 2020 request for 
advanced component development and prototype, 6.4, funding, 
grew by $5.8 billion from the fiscal year 2019 request or 27 
percent. So I am certainly a supporter of prototyping and risk-
taking, but we also need to invest in our future science and 
technology. So, given the new challenges on the horizon and the 
promise of powerful emerging technologies, why should we be 
effectively decreasing investments in DOD S&T?
    Dr. Griffin, let's start with you. I would like to hear a 
comment from all of our witnesses.
    Secretary Griffin. Yes, sir, thank you.
    Well, I cannot argue with your figures. You are, of course, 
correct. I will note that many of the scientists and engineers 
to whom you refer can work across the boundaries of 6.1, 6.2, 
6.3, 6.4. So I don't think our individual talent pool is at 
risk because of the prioritization that we are doing. And if 
you look at RDT&E as a global enterprise from 6.1 through 6.7, 
we are actually up--across base and OCO [overseas contingency 
operations], we are up 9 percent. And across base alone, we are 
up over 8 percent. So I prefer--I do very much understand your 
point about the difference between S&T and prototyping. I do 
tend to look at the RDT&E enterprise as a continuous stream. 
And in that sense, we are up. So I will stop there and let my 
colleagues comment as well.
    Mr. Langevin. Okay. Dr. Jette.
    Secretary Jette. Mr. Chairman, our objective in the Army 
has been to make sure that we have taken the money for 6.1, 
6.2, and 6.3 and adjusted it for inflation and inflationary 
factors and salaries and those types of things and then try to 
make sure we keep that at a level playing field.
    We sacrificed in our 6.4 for some time, and we have now 
increased, and that is one of reasons our 6.4 budget has 
significantly increased.
    One of the things we are doing to try to get at the issue 
of salary disparities between some of the greater talent that 
we might want to reach out to, is to leverage some of the 
authorities that you have given us, pay banding, renewable 
term, educational partnerships for individuals that may not 
want to leave full time their university institutions. So, 
rather than trying to purely obtain the talent on a full-time 
basis, we can leverage other methodologies. So we think at this 
point that we have been able to structure our overall budget to 
keep ahead of the loss of talent. In fact, we think we have a 
good talent pool going and particularly with some of our 
outreach programs over 240 universities that we work with, we 
think that we are also bringing in a number of interns to and 
direct hires. It appears at this point, though, I would say, 
our talent pool is pretty stable and sound.
    Mr. Langevin. Secretary Geurts.
    Secretary Geurts. Yes, sir, absolutely a critical point. I 
guess we are attacking the overall issue from a couple of 
different directions, which I will kind of cover in top level 
and can certainly follow up in more detail, either in questions 
or in followup. The first thing is, how do we maximize the 
investment that we have made? So $2.3 billion, while not a huge 
amount of growth from previous years, is still a lot of money. 
And so my first goal is to maximize the return in value we get 
for that funding. That is through getting rid of inefficiencies 
in our processing, making sure we have those funds focused on 
the most critical needs for the Navy and the Marine Corps and 
for the Department of Defense.
    The second piece is, are we really maximizing the tools we 
have? Partnership intermediary agreements, cooperative 
agreements, other tools to bring in folks to the ecosystem. So, 
if I look at our numbers just in terms of CRADAs [cooperative 
research and development agreements], last year we had 478; we 
already have 266 new ones. So we are continuing to see that 
raise increase. Use of OTAs have gone from 8 to 42 in one year.
    The third element is creating a clear path from discovery 
all the way through to deployment. And so we have reorganized 
the back end of our R&D portfolio to really focus on two 
things: future naval prototypes, which is a path in terms of 
getting that S&T pipeline into the programs of record so we can 
get it into our acquisition programs; and then also innovative 
naval prototypes, things where we don't have requirements yet, 
ideas, things we want to challenge, take high risk, and move 
that into the system. Creating those pipelines then really 
leverages that 6.1, 6.2 and these other agreements with 
industry to give them a clear path to the sailors or Marines 
that we have.
    And, finally, it is boldly experimenting, boldly and 
relentlessly experimenting, and allowing that basic research, 
that applied research to get in the hands of a sailor or Marine 
as quickly as possible. Because many times we find what they 
designed the technology for may not be ultimately where it has 
the most value into our ecosystem and vice versa. We may not 
have asked for something until we see it. That is how we are 
really trying to get at maximizing that investment. As we 
maximize that investment, we will continue to look at adding 
more as the years come.
    Mr. Langevin. Mr. Roper.
    Secretary Roper. Mr. Chairman, I think the Air Force has 
really tried to approach the valley of death issue with this 
budget. We have had great technology work going on for--since 
our inception, going on for decades. But in the collapse of the 
Soviet Union, we lost a peer adversary that forced, as a 
mandate, to keep competitive edge, that forced high-tech 
technology into new systems. And with prototyping funding going 
down year after year, we got accustomed to there being 
significant funding in S&T and then significant funding in 
program of record. So you are seeing the Air Force put a lot of 
its investments this year into the 6.4 prototyping fund, it's 
$1.64 billion to try to get things like hypersonics, directed 
energy, AI out of the laboratories into the field, into 
operators' hands where they can be used. We hope that once 
there are programs of record in place, that creates a natural 
draw and demand from the S&T enterprise to keep modernizing, 
keep pushing the envelope of technologies because there is a 
place to transition it in field for warfighter.
    I expect that over time, as we get a lot of the mature 
technologies out of our research lab--I would also like to 
recognize a lot of our important innovation partners, DARPA, 
SCO [Strategic Capabilities Office], and DIU [Defense 
Innovation Unit], are here today. We take the best ideas where 
we find them. And we want to make sure that we have the funding 
in place for prototyping to make sure that we can apply them to 
mission. But I expect that, over time, we will start 
rightsizing across the whole RDT&E portfolio to make sure that 
we have optimized for that transition. We can't transition 20 
programs a year. We have to determine the number that makes 
sense for us to keep our dominant edge and then rightsize the 
rest of the S&T underneath it. But the focus for me this year 
is going to be transition rate. It is time to create some new, 
new programs in the Air Force. I am hoping we will do that in 
our 2021 budget request.
    Mr. Langevin. Thank you all. I just hope we will not lose 
sight of striking the balance of optimization. I don't want to 
do one at the expense of the other, especially when we are 
talking about developing those leap-ahead, next-generation 
technologies. We can't eat our seed corn. We have got to make 
sure that we are planning for the future and properly investing 
in the R&D part, along with the prototype and getting things 
out of the lab and into the warfighters' hands as soon as 
possible.
    As I mentioned in my opening statement, concurrency in 
policy and tech development is critical to successful 
employment capabilities and being a global leader and 
establishing norms for use of technologies, yet too often 
policy lags behind tech development. So, to the witnesses, in 
your view, what actions does the Department need to take to 
promote currency in policy employment concepts, training, 
doctrine, and other matters as technology matures?
    Secretary Griffin. I guess I can start. One of the things 
we are trying to do on the research and engineering side of the 
house is to work more closely with the Joint Staff as they plan 
execution concepts. They need to know what technologies could 
be available if they want them. And we need to know how they 
would like to fight, if we could give it to them. We have made 
I would say very significant efforts in improving regularizing, 
increasing the frequency of those interactions so that, as we 
plan the future force, we know what the people who have to 
fight want and they know what we have a chance to give them. 
Working very aggressively on that.
    To that end in fact, just to pick one arena, in that of 
directed energy, we recently started a program to put a high-
energy laser on a littoral combat ship. Initially, this will be 
a demonstration. If it works out well, we can take it to the 
next step, but it is time to get these systems out of 
laboratory and into the field, and that is where we are going.
    Mr. Langevin. Anybody else care to comment.
    Secretary Geurts. Yes, sir, I think the way we are 
approaching it, to Dr. Griffin's point, and my experience at 
SOCOM [Special Operations Command], the faster you can get 
something in the hands of the warfighter, the faster you can 
understand where you have the real practical policy 
implications and start working our way through that. So efforts 
like our Sea Hunter, where we autonomously transited from San 
Diego to Pearl Harbor and back with a DARPA-developed product 
that the Navy is now working on, is a great example. As Dr. 
Griffin said, getting lasers, we are putting 150 kilowatt laser 
on the Portland this summer. Get it out in the hands of the 
fleet. Let them experiment. The two other tools we use are 
innovative naval prototypes. Those are things that we do not 
yet have a requirement for but looked like they may be 
disruptive technologies. And we found the faster we can put 
them out in the field, the faster we understand where those 
policy pieces we need to work on or where the technology 
disruption opportunities are, and that is kind of our focus.
    Secretary Jette. Mr. Chairman, we have done a number of 
things to try and address the issues that you have raised. One 
of them is a policy that we put in place, it is commonly known 
amongst us as the 60/40, 80/20 policy. It gives us the freedom 
where you take 6.1, 6.2, 6.3 money, in the past, often you 
tried to find a way to link all your funding to something that 
you are going to do later. The later in the 6.2, 6.3, 6.4, you 
ended up needing a transition agreement; very formal process, 
so formal that what it did was it constrained our innovation, 
particularly at the lower levels and our ability to look at 
things that might not be so clearly tied to a current 
operational need. In our current approach, things like 6.1 
money is 100 percent optional. Just give me a good reason why 
we are doing it that might have military utility. You don't 
have to tie it to an existing program or a defined need. The 
same type of approach for 6.2 is somewhere in the ballpark of 
50/50; 6.3 starts to get it closer to 80/20; and 6.4 tends to 
be something that we are trying to get focused against a 
particular outcome. This way, it gives us a little bit of 
structure but assures freedom on the part of developers to be 
able to think outside the box and outside of the current 
requirements.
    We have done a couple of other things that I think are 
important. One of them is we have the Army's established Army 
Futures Command. The objective of the Army's Futures Command is 
to do a from stem-to-stern integration of the concepts. I have 
got operational concepts. I am looking for technologies, and I 
want the technology development community to then influence the 
operational concepts. So it is a spiral type of approach to 
coming up with new directions that we need to focus. And then 
when we do develop the new technology, how best we apply that? 
How do we develop the doc on the TTPs [tactics, techniques, and 
procedures], and who exactly does that? So that it is not that 
we just give them a new item--I have fielded many things. 
Sometimes you give it to somebody, they do not have a real good 
idea of how to use it; it is no better than what they had and 
maybe even worse.
    We have instituted the Rapid Capabilities and Critical 
Technology Office to try and accelerate, particularly in the 
area of AI, hypersonics, space, directed energy, our SAP 
[Special Access Program] programs to get them more under 
control, make sure that we know that they are focused and make 
sure that they are properly resourced. And we put--you 
mentioned in your discussion, how do we increase the 
willingness to take risk? Organizationally, people are not 
particularly fond of taking risk, not in the government. It is 
just not one of those things that is core characteristics. So 
we establish a policy where we require people to put stage 
gates in. This comes out of something that I used in the 
commercial sector in a lot of work that I did. You move your 
highest risk to the front; fail early if you need to. Highest 
risk to the front, and then you have off-ramps at various stage 
gates. And if you run into a place where you found that 
something is not going the way you want, you can all jointly 
make a decision: Was it a true failure, or do we have to adjust 
our target? So we are putting a number of these different 
pieces in place to try and see if we can get at this overall 
methodology by which we attack these technology problems.
    Mr. Langevin. Well, I think the doctrine policy is just as 
important in many ways as developing capabilities as well, 
making sure they are responsibly used.
    So, unless you have anything to add, Dr. Roper.
    Secretary Roper. I think most of my colleagues covered it, 
Mr. Chairman. I will just say briefly, in addition to trying to 
tackle the Valley of Death issue and create a gradient from the 
lab to the field, we are working hard to turn ourselves inside 
out. We have to determine the right way to have an S&T 
enterprise in a global ecosystem. So we have made great strides 
over the last year, increasing our work with universities and 
with small businesses. But we are really focused just inside of 
this Nation, and we should. We have got cutting-edge companies, 
the best in the world here, but it is going to be increasingly 
important to think about, how do we play a role in the global 
ecosystem as technology is developed everywhere? It can be 
developed by a company in country X; it can be used by anyone. 
And so we really need to focus on time to market, not 
technology exclusivity anymore. And that is going to mean 
thinking differently about how we work with universities and 
companies and individuals that are not in the U.S. And we are 
hoping to earn our way to those problems by being able to work 
very well with the innovators that we have in the U.S.
    Mr. Langevin. Okay. Thank you.
    I have additional questions that I will ask before we go to 
closed session on the condition of the labs. Also, I want to 
talk about authorities that may be going underutilized.
    With that, I hold those and turn to the ranking member for 
questions--her questions.
    Ms. Stefanik. Great. Thank you, Mr. Chairman.
    I am going keep my questions to 5 minutes so we can get to 
other members.
    My first question is for Dr. Griffin. Last year, when you 
testified before this committee, you highlighted that there 
were over 500 separate artificial intelligence projects within 
the DOD. Fast forward about a year, the Department has 
undergone a significant realignment of its AI portfolio with 
the establishment of the JAIC, the Joint AI Center, which 
reports to the CIO [Chief Information Officer]. How has your 
outlook on AI changed over this time period? Do you have a 
better understanding on what AI projects are underway? And what 
more can we do to accelerate the implementation and deployment 
of AI capability to the warfighter?
    Secretary Griffin. The count I offered in that hearing was 
based on an inventory we took at the time. I have no reason to 
disagree with it. I think the point of that comment is that it 
shows how broadly distributed the possible applications of AI 
and intriguing research areas exist. And we are trying to take 
full advantage of those.
    Ms. Stefanik. Let me just clarify my question. It wasn't to 
say, is that the number still today? It was more to say that we 
shifted from having a lot of different programs to a more 
comprehensive approach and a joint approach in terms of, how do 
we learn the lessons across DOD and centralize it in a hub-and-
spoke model through the JAIC?
    Secretary Griffin. Okay. Thank you. That helps. The Joint 
AI Center under the CIO has as its task the taking of research 
efforts which have proven to be successful or look like they 
could be successful in the near term and apply them to urgent 
or existing--I won't say just warfighter, but urgent or 
existing challenges of the operational community, everything 
from reforming business practices to pulling targets out of ISR 
[intelligence, surveillance, and reconnaissance] data to 
signals out of clutter, et cetera.
    The other focus--and I believe that Lieutenant General 
Shanahan, who heads that activity, working for Mr. Deasy, our 
CIO, I think he is all in. I think the people in the center are 
all in on doing this.
    On the research and engineering side, we have the task of 
bringing those tools into being. The tools that the JAIC is 
using are things which have emerged from quite literally 60 
years of AI work, mostly at DARPA. Now, as it happens, when you 
move into the closed session, you have those experts with you, 
and I am not one of those. I would urge you to quiz them.
    At the R&E level, we are trying to make sure we are 
covering the whole field, from research to today's 
applications. So that is one of the modernization priorities in 
the National Defense Strategy. As you may know, my deputy, Dr. 
Porter, and I have organized the research and engineering 
establishment around those priorities. The core of our 
organization is an assistant director for each of the NDS 
modernization priorities. We regard AI as so critical that the 
Assistant Director for AI will report directly to the two of us 
as opposed to going through other channels in the organization. 
Again, the goal is so that we have right in our front office a 
holistic knowledge of what is going on in AI across the 
Department but more importantly, across the entire field 
because the U.S. Government expenditures in research on AI, 
while extraordinarily significant, are by no means the total 
sweep of such expenditures. Let me stop there.
    Ms. Stefanik. Thank you for that. I have 1 minute left.
    Mr. Geurts, shifting gears here, additive manufacturing is 
increasingly becoming an important transformative capability 
across the services. And the DOD recently announced the 
investment of $60 million of RDT&E in the Digital Manufacturing 
and Design Innovation Institute to continue to transform 
digital manufacturing. I believe strongly that additional 
investment in additive and digital manufacturing will 
strengthen our domestic industrial base and therefore bolster 
our supply chain resiliency and accountability. I have a great 
example of the leader in my district, Norsk Titanium. Can you 
talk about how additive manufacturing is transforming logistics 
across the Department and how we can leverage those business 
leaders across the country who are investing in additive 
manufacturing?
    Secretary Geurts. Yes, ma'am. I will give you a couple of 
top level remarks and then happy to discuss it in more detail. 
It is transforming us both--you know, we have an expeditionary 
force. We are distributed all around the world. We have ships 
far away from logistics bases. We have Marines in expeditionary 
bases. So we have fully leveraged that to get after this 
logistic--we have 3D printers on ships. We have 3D printers 
with our Marines. We are 3D printing cement bridges. We are 
employing this across our entire ecosystem. And we have really, 
I would say, spent a lot of time on how to get certified parts 
and describe what parts and what families of parts can be 
printed locally with 3D printers and working through that whole 
piece very aggressively.
    Ms. Stefanik. Thank you. I want to abide by my time. I will 
follow up that in the second round. Thank you. I yield back.
    Mr. Langevin. Mr. Larsen is now recognized.
    Mr. Larsen. Thank you, Mr. Chairman.
    Dr. Griffin, I took your advice and entered the key words 
``ITAR [international traffic in arms regulations] free 
satellite'' in my favorite internet search engine, and I found 
the synonym ``knowledge-free policy.'' And that gets to your 
point in your testimony about the U.S. removing itself from the 
marketplace. By withdrawing much of our own industrial base in 
the global market, we restrict the competitive environment for 
our own domestic firms, which over time has the effect of 
eroding technological advantage we want to protect. That does--
those are your words from your testimony. It seems that might 
apply to the people side as well. And I want to get your views 
on how we should approach contracting with universities or with 
companies, as we heard contracting with companies, even if they 
are in the United States that either have researchers or owners 
or entrepreneurs who are either from competitor countries or 
maybe are even second generation in the U.S. What is the 
approach we ought to be taking based on your idea that limiting 
doesn't necessarily get you the policy result you want?
    Secretary Griffin. Sir, that is a subject very dear to my 
heart, as you saw in my testimony. And I--we have only a few 
minutes to cover it. I will do my best.
    Mr. Larsen. You have less than that because I have another 
question.
    Secretary Griffin. Yes, sir. We have to strike a balance 
between short-term security needs and long-term security needs. 
The United States got where it got, which is the world's global 
power still, by unfettering our innovators by being a place 
where other innovators wanted to come and stay, by allowing the 
free movement of capital and ideas to the maximum extent 
possible. There are absolutely things we need to protect. I am 
not naive about that. I am in fact paid to know what our 
adversaries are doing. With that said, we need to define the 
smallest possible areas around which we erect high walls in our 
industrial base, and for the rest of it, we need to let the 
competitors compete in the belief that our Nation will prevail.
    Mr. Larsen. So, if I can stop you there, we tend to apply 
that principle to things.
    Secretary Griffin. It applies equally to people, sir. It 
applies to people. I just the other day signed out a clarifying 
memo on how we are going to handle grants from the DOD, what we 
are going to know about the people who are working on those 
grants. That is a not insignificant topic, but our goal has got 
to be to attract the best and the brightest to our country and 
to keep them here.
    Mr. Larsen. You have laid out in one of your paragraphs in 
your testimony to address a leakage of leading-edge IP from our 
academic institutions, we need more counterintelligence 
resources; we need to educate our universities of threats of 
industrial espionage and assure they employ their best 
practices to protect sensitive research. Does the DOD have a 
specific program to educate universities and other elements of 
academia on best practices on counterintelligence? Are we 
active in that regard?
    Secretary Griffin. We are working that as I sit here, sir. 
We have a DOD-wide protection--protecting critical technology 
task force led by Air Force Major General Murphy. My piece of 
the organization is the executive secretariat for that. We have 
been and will continue to have conversations with university 
administration about what to do and what to protect and how to 
go about it.
    While I am in favor of the maximum--of fostering the 
maximum amount of competition we can arrange because of the 
benefits I believe it brings, I equally believe that we should 
be very aggressive in searching out and punishing IP theft and 
espionage. In fact, if we stop trying to protect every single 
thing we might want to protect, that will allow us the 
resources to go after those individuals and those efforts which 
are targeting our IP.
    Mr. Larsen. So you are currently not taking a one-size-
fits-all or an approach where you are cutting off universities 
and research 100 percent?
    Secretary Griffin. We are not doing that, nor do we want to 
cut off foreign student enrollments 100 percent. We want to 
look for the bad actors and deal with them as bad actors. But 
withdrawing ourselves from the globally competitive marketplace 
will in the long run damage rather than aid U.S. national 
security, in my opinion, sir.
    Mr. Larsen. Well, it happens to be my opinion as well. It 
may not be the majority opinion, but it is----
    Secretary Griffin. I have never been accused of worrying 
over much about that, sir.
    Mr. Larsen. Neither have I. Thank you.
    I yield back.
    Mr. Langevin. Thank you, Mr. Larsen.
    Mr. Banks is now recognized for 5 minutes.
    Mr. Banks. Thank you, Mr. Chairman. Thank you, Mr. 
Chairman, for holding this important hearing as well.
    Look, with more and more of our R&D being led by the 
commercial sector, the challenge is integrating commercial 
state-of-the-art capabilities into national security systems, 
as all of you have already said.
    The Department's efforts in microelectronics is a perfect 
example. The Department's microelectronics initiative for 
national security and economic competitiveness and the Trusted 
and Assured Microelectronics programs are focused on developing 
a trusted supply chain of state of the art for our critical 
national security programs.
    As you know, the Indiana ecosystem is a significant 
contributor to that. Our Naval Surface Warfare Center Crane and 
universities like Purdue, who Dr. Roper mentioned a little bit 
ago, Notre Dame, and Indiana University all support these 
efforts.
    So, with that, Dr. Griffin, going forward, what do you see 
as the role of DOD in supporting development of technology 
areas with national, commercial, and economic impact like 
microelectronics and 5G?
    Secretary Griffin. DOD has played, has a continuingly 
critical role to play in those developments. I have been out to 
Crane within the last 10 or 11 months. I forget exactly what 
date. I was blown away by the progress they are making on 
things that we can't talk about in this hearing. If you pursue 
that same line of questioning in the closed hearing of DARPA, I 
think they might offer you some exciting information.
    But, broadly speaking, the DOD has a critical role to play. 
I--however, I do have to put on the table that the issue is 
broader than just trusted pieces of hardware. I am going to be 
careful to restrict my comments to unclassified, those of an 
unclassified nature, and so those who have heard me offer these 
examples before will be rolling their eyes and saying, ``There 
he goes again,'' but these are unclassified examples and they 
are relevant.
    So I think 2 years ago everybody saw--most people saw an 
extensive treatment in Wired Magazine of a collateral damage 
caused by a Russian cyber attack on the Ukraine which spilled 
over into the Maersk shipping line, and that globally important 
company came within one computer of losing all of their 
records. That one computer happened to be located in Africa and 
had been offline because of a multiday power failure.
    So Maersk was able to reboot its system because there was 
one computer in their whole network that had not been 
contaminated. Last summer, I think everybody saw the front page 
news from the FBI: Please turn off your router because it is 
necessary in order to reboot the software to get the Russians 
off your network.
    We have talked to our--I mentioned Dr. Porter earlier. She 
recently had occasion to talk to some of our Eastern European 
allies, relatively newly freed from Russian domination. They 
have Russians all over their network. What is my point here? 
The Russians aren't making and selling any hardware. Nobody is 
buying any Russian microelectronics, and they are still a 
network threat everywhere we look. So it is about the hardware.
    Mr. Banks. Let me move on there. We can unpack that more in 
a different setting.
    Secretary Griffin. Yes, sir.
    Mr. Banks. According to an Axios article published today, 
Chinese telecom giant Huawei is poised to claim close to half 
of the 5G market. AT&T CEO [chief executive officer] Randall 
Stephenson also stated about Huawei, quote, ``You can't 
separate national security from competitiveness and 
innovation,'' end quote.
    What portion of the 5G market do U.S. companies currently 
have?
    Secretary Griffin. I don't know, sir. I can take that for 
the record. 5G is in its infancy. It is not--it is deployed, I 
think, in South Korea and on the Facebook campus, but it is not 
a finished product.
    [The information referred to can be found in the Appendix 
on page 96.]
    Mr. Banks. Okay. Your office is managing the DOD 5G effort, 
correct?
    Secretary Griffin. We are developing the DOD 5G strategy, 
yes, sir.
    Mr. Banks. So how do you synchronize all of our DOD efforts 
in a space that is primarily commercial?
    Secretary Griffin. That, of course, is the key question. 
And so we see as our function the enabling of commercial 
enterprises to help them compete in what is a worldwide 
competition. But our companies view themselves as competing 
with other companies irrespective of where they are located. 
They don't view themselves as being in a country-to-country 
competition.
    Huawei is an established competitor at this point. AT&T and 
Verizon and Sprint and T-Mobile and other companies do and will 
want to compete successfully with them, and I think by 
collaborating with them in specific areas, we can help them do 
that.
    Mr. Banks. Thank you very much. My time is expired.
    Mr. Langevin. Thank you, Mr. Banks.
    Mr. Kim is now recognized for 5 minutes.
    Mr. Kim. Hi. Thank you so much for taking the time to come 
out and talk with us. This is very enlightening to me to hear 
your different perspectives.
    And it is kind of similar, going off of the last line of 
questioning here, for me, as I am approaching this, and we are 
understanding that even the title of this hearing, we are 
talking about the technological edge, and each and every one of 
you have talked about it in that context as well, and we know 
that overhanging everything you are talking about is this 
discussion about near peers and Russia and China and others in 
terms of where they are at.
    So, from my perspective here, I want to tell you that it is 
hard for me to understand our budgeting and the work that you 
are doing if it is--if it were at the right pacing and the 
right levels without understanding, you know, where that stands 
vis-a-vis that competitive edge.
    You know, Dr. Roper, I think I really enjoyed how you 
crystallized it in a couple different frames here, and I wanted 
to just dive into that. You were talking about that competitive 
mindset, which includes, you know, the staffing competing for 
the talent. You talked about the competitive speed, including, 
you know, the speed with which we get--bring things to the 
warfighter, and then also that competitive ideas that make sure 
that we are on that edge.
    So I guess I would like to start with you and just get a 
sense, with those three competitive, you know, categories, 
should we say, what is your assessment of how we stack up 
against our--the near peers, China and Russia, that is 
overhanging a lot of the discussion that we have today? You 
know, are we ahead? Are we keeping pace? Do we have some 
catching up to do? It will help provide me with some context as 
I am trying to assess the budget levels that we are talking 
about.
    Secretary Roper. Congressman, I will keep comments at a 
high level to not go into details we shouldn't discuss openly.
    I am comfortable with where we are now but not comfortable 
with the trend. So China has made significant advances in 
innovation and technology, but we are a country that has been 
good at it for decades. The impediment that I see is that 
technology development has transitioned from being mainly led 
by the U.S. Government in the Cold War to now being developed 
across the world.
    So we have to change from being a technology inventor to a 
technology user. And we are not going to quit inventing 
technologies, but primarily we need to be able to ingest and 
get new technologies to market and our systems.
    So I think the paradigm we have got to adjust to is not 
being a military that has technologies no one else has or will 
have, but having technologies first and keep putting our hand 
up on the baseball bat faster and faster than any other 
opponent.
    And I like our chances because we are an innovative country 
with innovative universities and innovative companies to work 
with. We need to get everyone connected. We need to get the 
bureaucracy out of the way we do contracting and small business 
work and get moving.
    Mr. Kim. I appreciate that.
    And, Dr. Griffin, I would like to go to you for your 
assessment here, you know, in this unclassified setting, just 
to get your overall impressions of where we are stacking up.
    Secretary Griffin. Well, my overall impression is that 
overall the United States is still the world's superpower, the 
world leader in most technologies of interest to the Department 
of Defense. There are some areas where we have some catching up 
to do.
    In a completely unclassified setting, I can say go to the 
internet and look up the Chinese DF-26 [Dong-Feng 26]. It is a 
hypersonic missile that, in an unclassified setting, you can 
see that they refer to it as a carrier killer. It is 
operational. It can range Guam from the Chinese mainland. That 
is a concern. We don't have similar systems yet. We will.
    On the other hand, it is often touted that, because China 
is spending a huge amount of money on AI, that they are ahead 
of us. They are not. Our best assessment is that, although we 
are spending much less, we are spending it wisely and that this 
is still an American province.
    We cannot take comfort from parity. We cannot take comfort 
from the fact that in some areas we are ahead. We have to 
recognize--and I will give credit to Will for pointing out that 
much of what is going on in the R&D world today is being done 
commercially as opposed to being solely the province of the 
national security community.
    So, if it is in the commercial world, it is available to 
everyone. So we need to take advantage of that. We need to do 
it quickly. We need to keep up our own efforts on those areas 
which are not commercial. There is no finish line here.
    We will not maintain the national security capability that 
has, broadly speaking, kept peace in the world for 75 years, we 
won't reach a point where we own that and no one else can touch 
it. There is no finish line. It is a work in progress and 
always will be if we want to support peace and freedom in the 
world.
    Mr. Kim. Well, I appreciate that. I yield back.
    Mr. Langevin. Thank you, Mr. Kim.
    Mr. Waltz is now recognized for 5 minutes.
    Mr. Waltz. Thank you, Mr. Chairman.
    And thank you, gentlemen, for coming out today.
    Just to very quickly just share with you kind of, you know, 
we all are influenced by how we approach a problem, right. Mine 
is as a special operator, spent time in the Pentagon in the 
building and then as a small business owner where it was 
incredibly frankly painful to do business with the U.S. 
Government, with probably about an additional 25 to 30 percent 
of overhead just to handle all of the regulatory stuff 
required.
    So I have seen this movie from a couple of different 
angles. A few questions. Our S&T ecosystem, I agree, is one of 
the best in the world. We are great. We are fantastic as a 
government at throwing money and resources at a problem.
    And just as, you know, as I look across the DOD labs and 
centers, dozens and dozens of these, as I look at what we have 
tried to do in the last few years to fix the problems in those 
labs by creating additional parts of the ecosystem, like SCO 
and DIUx [Defense Innovation Unit Experimental], I mean, how 
are you, Dr. Griffin, getting your mind around and getting it--
bureaucratically getting our arms around everything that we are 
throwing at this problem, from the labs to SBIRs [Small 
Business Innovation Research programs] to academia.
    You have stuff that is not even mentioned like CTTSO 
[Combating Terrorism Technical Support Office] at SOCOM, DARPA, 
all of these centers, how the heck do you know what is going 
on? How is that bubbling up? How are you synchronizing that 
entire ecosystem?
    Secretary Griffin. If I have somehow created the impression 
that I know what is going on, please let me----
    Mr. Waltz. I hope so.
    Secretary Griffin [continuing]. Disabuse you of that 
notion.
    Mr. Waltz. Because you are asking for yet more resources to 
throw at it.
    Secretary Griffin. We are. And we are trying very hard to 
make sure we do understand the overall landscape and that we 
can address exactly the issues you have raised.
    I have run two medium-sized companies, and one of them was 
a GPS [Global Positioning System] company some years back, and 
I sold--the company sold GPS navigation products to the U.S. 
Government. We also made commercial, handheld GPS units, and we 
also made survey equipment.
    We did not allow the survey equipment folks and the 
handheld commercial unit manufacturing folks to have anything 
to do with the people who made missile guidance and navigation 
stuff because they were contaminated by U.S. Government 
processes, and if we allowed those two to mingle, the only 
practical effect was going to be I was going to ruin my 
commercial company.
    Mr. Waltz. I totally understand the problem. Just----
    Secretary Griffin. I get your point. So, to that end, sir, 
we have recently expanded the entire Defense Innovation Unit, 
its scope, and its authority, and its funding because the goal 
of that group is to offer a low-impedance approach to pieces of 
the commercial industrial base who could be but don't think of 
themselves as defense contractors. That is one of the things we 
are doing.
    Mr. Waltz. Oh, that is great. So I would just leave with 
you a few other questions. We just have to be very careful. We 
do it across the government. It is not blaming anyone here. 
Rather than fixing a problem within our government we throw 
additional pieces on top of it. So, if you could just submit 
for the record, it is still not clear to me, SCO, DIUx, the 
labs and really what they are doing better and differently.
    [The information referred to can be found in the Appendix 
on page 96.]
    Mr. Waltz. Dr. Roper, you mentioned in--the last time we 
were here, you made a statement that I found interesting, and 
frankly concerning, as someone who has been out on the ground 
the last 20 years, that if we prepared for great power 
competition, that we would therefore--you submitted we would 
therefore be prepared and continue to be prepared for 
counterterrorism, stability operations.
    I think if that were the case, we wouldn't have found 
ourselves scrambling post-9/11 things like JIEDDO [Joint 
Improvised Explosive Device Defeat Organization], MRAP [Mine-
Resistant Ambush Protected vehicle], all of those other 
technologies. And as someone who was on the ground, who we 
didn't have what we needed, and often what we did, when it 
arrived, we threw it in the CONEX [shipping container] because 
it wasn't what we needed.
    I am concerned, and I just would like to know, you know, 
obviously building things that fly high, fast, and far is very 
different than understanding culture, language. We have special 
operators--I know you know this, Mr. Geurts--on the ground in 
60 countries. What do we do in--we can't take our eye off that 
ball, and I am concerned the pendulum is swinging too far.
    Secretary Roper. Congressman, I appreciate you raising that 
because I certainly don't want to imply that, in a generic, 
abstract sense, that if you are designing for the high-end 
threat, you are always good for the violent extremist threat. 
But in this case, as we think about conflicts in the future, 
potential conflicts in Europe or in Asia, by designing----
    Mr. Waltz. Keep in mind, we are still in these conflicts.
    Secretary Roper. Absolutely.
    Mr. Waltz. As much as people would like to wish them away, 
and a lot of people in this town would, we are still there.
    Secretary Roper. Absolutely.
    And, Mr. Chairman, I will ask just your forbearance to 
answer the Congressman's question, if you wouldn't mind. Thank 
you, sir.
    Mr. Langevin. Just briefly.
    Secretary Roper. So, in one case, to give you an example, 
we are working on the advanced battle management system, which 
is to provide support to Marines and soldiers that are on the 
ground, similar to what JSTARS [Joint Surveillance Target 
Attack Radar System] does today. We are designing that to be 
able to go into areas where things are going to try to contest 
our ability to operate there, but we are mindful that we need 
that system to also be able to go into the Middle East and 
Africa to do mission today.
    So we are very mindful. If we design for the high-end 
threat, there has to be an offshoot for the uncontested 
environment. So my statement is a forward-looking statement, 
not a rearward-looking one. So I appreciate you asking that 
question, sir.
    Mr. Waltz. Thank you.
    Mr. Langevin. Thank you, Mr. Waltz.
    Ms. Houlahan is now recognized for 5 minutes.
    Ms. Houlahan. Thank you, Mr. Chairman.
    And thank you, gentlemen, for coming here today. And I 
think I join many of the other colleagues who came before me, 
including our chair, in our concern about the fiscal year 2020 
budget and the cuts that I think are in there for S&T and DOD 
related research.
    Many of the technologies that I worked on when I was Active 
Duty in the military are now in the field today. We benefited 
from investing 20, 30 years ago, and the warfighters of today 
are reaping those rewards. And it is really important that we 
continue that sort of effort to be forward thinking.
    I have three questions, and so I will ask the three of 
them. I believe they are mostly for Dr. Griffin, and the final 
one is for you all together. The first one is on artificial 
intelligence and recognizing the importance of the DOD 
relationship with industry, with universities, and research and 
development in the labs.
    My first question has to do with what you are doing to make 
sure that we align and better engage basic research in our 
laboratories and universities in supporting the advancement of 
AI technologies and initiatives. So that is my first question 
which relates to AI.
    My second one relates to advanced manufacturing. I was an 
entrepreneur and an engineer, and about 15 years ago, I was in 
the footwear industry working with 3D technology working to 
innovate with printing footwear using 3D printers overseas.
    And so, 15 years later, I am really intrigued by--still 
intrigued by supply chain improvements and initiatives that 
reduce costs for us, that increase our flexibility and our 
supply chain and reduce our reliance on foreign manufacturing.
    And so my second question has to do with what opportunities 
exist in research and advanced manufacturing that can help 
transform the DOD and the industrial base and what research 
activities are underway to support them and to the degree that 
you can answer that question in this setting.
    And then my final question for the entire panel actually 
has something to do with what the chairman introduced with, 
which he said he was pleased to see the highest leadership here 
today. And I also am pleased. I am very grateful to see you 
here.
    But what I also see is something different because what I 
see is a bunch of White men, and what I am interested in is 
what we are doing to make sure that we elevate people of color 
and women to those highest positions of responsibility, STEM 
and STEAM [science, technology, engineering, the arts, and 
math] education. What sort of specific initiatives are we doing 
within our communities to make sure that I, as a young engineer 
and now as a Congresswoman, would like my children to be able 
to see a different face in front of me when I next see people 
here?
    So that would be my final question, and I have about 2\1/2\ 
minutes if you wouldn't mind helping me with those answers.
    Secretary Griffin. We are actively working in AI across the 
entire industrial base, universities, laboratories, companies. 
I mentioned earlier that the U.S. Government investment in AI 
is not the biggest dog there. So we get that, and we are 
working with them.
    With regard to advanced manufacturing, 3D printing, all of 
that, what are our options, I am going to have to that that for 
the record. I am--as I like to say, sometimes I am a simple 
aerospace engineer from a small town, and I am not up on 3D 
printing and manufacturing, so we will take it for the record.
    [The information referred to can be found in the Appendix 
on page 94.]
    Secretary Griffin. With regard to the leadership, the USD 
R&E Deputy Under Secretary, Dr. Lisa Porter, as her name was 
brought up by Ranking Member Stefanik in another context, 
unlike me, she is not an old, White guy. And she is sitting at 
home cringing now watching this because I would be happy to 
have her being here instead of me. Trust me.
    Ms. Houlahan. No. And I completely appreciate that. It is, 
you know, making sure that it is more than just one person that 
we can point out, you know, making sure that we have a pipeline 
of people who look different than all--than, you know, who 
reflect the face of our Nation.
    Secretary Griffin. Well, Dr. Nikolich will be testifying in 
the closed session. His deputy is Mary Miller, whom you, I 
believe, know. She is a long-time employee.
    The Assistant Director for Microelectronics is Nicole 
Petta. Microelectronics was raised by Mr. Banks earlier. Nicole 
ran a division for me in a company that I previously ran. I 
managed to trick her into coming to the DOD to help.
    Ms. Houlahan. Are there programs----
    Secretary Griffin. I think we are doing everything we can.
    Ms. Houlahan. Are there specific programs aside from 
specific seats that--you know, maybe, Mr. Geurts, it seems as 
though you might have an answer to that.
    Thank you, sir, for your time.
    Secretary Geurts. Yes, ma'am. I am happy to bring you some 
more of the details.
    Ms. Houlahan. Thank you.
    Secretary Geurts. We have got a number of programs, our 
Chief of Naval Research Deputy, senior civilian for our 
research, is a female. But to your point, we are not going to 
compete and win if we cannot fully leverage diversity in all of 
its elements, and so we would be happy to talk about that. We 
have got an Asia-Pacific partnership STEM program. We have got 
a lot of other ones we can describe for you. It is such an 
important topic.
    Ms. Houlahan. Thank you.
    And if I could just have 10 more seconds, I just wanted to 
conclude by asking if we could, in fact, get more information 
about the 3D printing. And I would love to hear a little bit 
more about how we are engaging the universities and R&D labs 
more effectively for the record. That would be great. So thank 
you so much for your time.
    Secretary Griffin. Yes, ma'am. We will take that for the 
record.
    [The information referred to can be found in the Appendix 
on page 95.]
    Mr. Langevin. Thank you, Ms. Houlahan.
    Mr. Brown is now recognized.
    Mr. Brown. Thank you, Mr. Chairman.
    Starting on a lighter note, Dr. Jette, great to see you. I 
will not report back to the Army that you used a naval metaphor 
stem to stern to talk about the approach of the Army Futures 
Command. Yeah, it is a joint force. I get it.
    So my question, so I also have concerns that in the 6.1, 
6.2, 6.3 categories where we seem to be, you know, 
underfunding, that is where we are planting the seeds for the 
military's future technology.
    In the 6.4 funding area, advanced component development and 
prototypes, let me ask you this: What percentage of that 
prototyping is done inside established systems of acquisition 
oversight for programs of record, and how much of that 
prototyping is done outside of a program of record? Any 
ballpark?
    Secretary Griffin. I do not know. I will take that for the 
record. If my colleagues happen to have that at their 
fingertips, I welcome their answer.
    [The information referred to can be found in the Appendix 
on page 94.]
    Mr. Brown. And the reason why I raise it, and I think, Dr. 
Jette, you will be able to speak to it is because, you know, as 
I understand it, the GAO [Government Accountability Office] has 
expressed a concern that when it comes to prototyping--and they 
were looking at the Army Futures Command--that a lot of 
prototyping more and more seems to be done in a relevant 
simulated environment versus in an operational environment. And 
they expressed the concern that we are moving to weapons 
systems development at a lower level of maturity. Does that 
have to do with where the prototyping is taking place?
    Secretary Jette. Congressman, I think that, first, to give 
you an idea, I mean, the vast majority of our prototyping is 
done in a controlled approach, so there is a program manager or 
a lead integrator that is responsible for doing a prototype, 
and probably on the order of 90/10.
    So we try to make sure that, as we are doing prototyping, 
it is not just willy-nilly and that it is also associated with 
a program--a plan to some success if the program plan is, in 
fact, successful.
    Mr. Brown. So, given that it is not willy-nilly, you still 
have the difference between a relevant simulated environment 
and an operational environment. I am sure you are familiar with 
the concern that the GAO expressed. And what is the response of 
the Department of the Army?
    Secretary Jette. Well, so I think there are two approaches 
the Army is taking to that. First, we work very hard at trying 
to make our simulated environment as close to those 
characteristics of the actual environment we expect to see or 
are seeing as possible.
    And we have organizations specifically designed to do that, 
and it is part of our test and evaluation master plans that we 
put together: How close are we to what we need from the 
operational perspective to make sure that we have actually 
tested the equipment in an environment that is relevant? So 
that is a significant part of how we come up with the test 
plans.
    The second piece is that we do an awful lot of prototyping. 
The other 10 percent, in many ways--we have the Rapid Equipping 
Force. We answer calls from theater for various types of 
equipment. And those in many ways also form a variant of a 
prototype because they are usually small sets, certain 
missions, certain numbers. We go out. We study how they are 
doing in the actual operational environment and then return 
them.
    I think the--probably the other one thing is we have a lot 
of partners internationally, other countries who have various 
issues in their environments, and we work closely with them to 
try and see how they are using their innovative components 
early.
    Mr. Brown. Let me see if I can just get one more question 
in. Is there an idea--and, again, I always go back to what the 
GAO kind of recommends or highlights to Congress. And they are 
recommending a high-level DOD-wide strategy that communicates 
strategic goals and priorities and delineates roles and 
responsibilities among DOD's prototyping and innovation 
initiatives.
    They claim that there is not such a strategy. What is your 
response to that? Is there an overarching DOD-wide science and 
technology strategy that delineates roles and responsibilities, 
and is it in writing?
    Secretary Griffin. I guess the best I could tell you, sir, 
is that from their R&E under secretariat that is a work in 
progress.
    Mr. Brown. Okay.
    Secretary Griffin. The National Defense Strategy has been 
referred to here several times earlier. That is our guidebook 
for what modernization should look like. We are trying very 
hard across the Department to reorchestrate our development 
portfolio in line with those modernization priorities.
    We are judging new programs according to whether they fit 
within this priority scheme or not, not that they can't be 
funded even if they don't, but that that certainly is a 
relevant fact. We are trying to realign our S&T and portfolio 
and right through RDT&E to fit what it is that the Nation's 
overall defense modernization strategy supports. We are not 
done yet. The NDS was released 14 months ago.
    Mr. Brown. And will that--and, Mr. Chairman, just one 
followup.
    The end result, will that be a work product? Will that be a 
document that can be reviewed and evaluated?
    Secretary Griffin. I think we will be able to put together 
the end products from a number of these different areas and 
bring them to you if you wish, sir. I don't believe we are--I 
am not working on preparing one document which summarizes all 
of it in one place.
    Mr. Brown. Okay.
    Thank you, Mr. Chairman.
    Mr. Langevin. Okay. Thank you, Mr. Brown.
    We are going to go into a brief second round, but I want to 
start with a question for all of you. According to the 2017 
report by the Defense Science Board, most lab directors feel 
that they are unable to maintain the facilities and 
infrastructure at a reasonable standard.
    So I want to know, can each of you please discuss the state 
of your research labs and how the budget addresses concerns 
about maintaining the labs at the standard necessary to conduct 
cutting-edge research.
    Secretary Griffin. Chairman Langevin, I guess I will start. 
We have had challenges in this area. When we get military 
construction money it goes for a very wide range of priorities, 
all of which are real, and only some of it goes to laboratories 
and facilities.
    So I have had occasion to see--in my 14, 13 months in the 
job so far, I have had occasion to see quite a number of 
facilities and laboratories which are in the process of being 
upgraded. I have seen many more which need it, and it isn't 
happening soon. I think I should stop there. It is a very 
difficult problem. We don't have all the money for laboratory 
and facilities upgrades that we would like. We are working on 
it.
    Mr. Langevin. We need to keep focused on that. We can't----
    Secretary Griffin. I could not agree more, sir.
    Mr. Langevin. Okay. Dr. Jette.
    Secretary Jette. Mr. Chairman, this is an area of concern 
certainly for the Army. If you just take a look at the 
capitalization in the laboratory systems and the funding that 
is directly applied to that, we have insufficient funding to 
make sure that the labs remain up to date if that is the only 
method by which we actually do so.
    One of the benefits we have is you have given us 
authorization in 2363 to tack 2 to 4 percent onto our research 
and development efforts, take that money back in, and then 
provide it to the lab directors to do upgrades and enhancements 
that are necessary to keep the lab at a cutting edge.
    We fully implemented that. It took a little bit to get it 
past some cultural issues, but that, in fact, is working well 
and helping us. We do have a number of MILCON [military 
construction] projects, and we are I wouldn't say accelerating 
but we are getting a few more per year.
    Picatinny has $41 million in Explosive Ordnance Disposal 
Technology Facility. Soldier Center at Natick has $44 million 
in Human Research Engineering Lab. There is--Aviation & Missile 
Center has a propulsion systems lab for $30 million in 2022. 
ERDC [U.S. Army Engineer Research and Development Center] has, 
in 2023, communications center for 14.8, and 2024, a risk 
assessment lab for 30.
    So we are trying to work with the labs to help them 
identify specific things that we can get through the MILCON 
process.
    Mr. Langevin. Secretary Geurts.
    Secretary Geurts. Sir, briefly, the average age of our 
facilities in the labs is 61 years old. So the problem is real. 
It is something we have been attacking. As Dr. Griffin said, 
you are competing the average age of the Navy dry docks and 
piers is 62 years. So, you know, there is certainly competition 
for it.
    I would like to thank the committee. You have given some 
additional funds in 2018, $20 million, which allowed us to burn 
back 25 percent of our backlog in minor MILCON, which was 
really powerful for the labs, and we have taken full advantage 
of that.
    I do think there is more opportunity. We are looking at 
both using some of the authorities, like the 219 authority, to 
allow us to do some more without going through the former 
MILCON process for some of the minor mods. There are probably 
some opportunities to relook at that authority to see if there 
is a little more flexibility.
    And then, finally, we are looking at some new models, as 
Representative Stefanik talked about the ecosystem. It is not 
clear we have to wholly own every one of these facilities if 
there is a way we can work with some of our partners and come 
up with win-wins in terms of joint research facilities and 
whatnot. So we are just on the front end of that. We are 
looking at all the available means to take on this problem 
because we will not stay relevant and attract talent if we 
don't.
    Mr. Langevin. Great.
    Secretary Roper. Mr. Chairman, I will say briefly, I think 
it will always be a systemic problem that modernization of 
laboratories will have a difficult time competing against 
MILCON that is for immediate readiness, a warfighter who needs 
something done immediately.
    So I am very appreciative of the authorities that this 
committee and Congress writ large has given us to use RDT&E 
funds to do minor modernization, minor MILCON, so the section 
219 authority. We have been able to do modernizations at AFRL 
[Air Force Research Laboratory], about $83 million worth that 
would have never made the MILCON budget.
    I believe these authorities are set to expire in the 
future, in 2025, so I would ask to be able to work with you and 
other members to either extend the authority or remove the cap 
and potentially raise the threshold of funding we are able to 
spend.
    I think it makes sense for modernization of facilities that 
do science and technology to be funded out of science and 
technology work. The laboratory is much more than a building. 
It is a factory for new ideas and technologies. So we should 
have a different way of working with it. Thank you.
    Mr. Langevin. All right. Thank you all.
    So I am going to state this question, and then I would like 
you--for the record, and then I would like to have you respond 
to that one, this last one in writing.
    But, Secretary Geurts, you have told us that the Navy is 
leaning forward on fiscal year 2017 NDAA, section 233, which 
allows each acquisition executive to waive policies and 
guidance of the Science and Technology Reinvention 
Laboratories, the STRLs, to allow for the development and 
implementation of alternative and innovative methods for 
effective management and operations in your laboratories, 
warfare centers, and system centers.
    Your letter from October 2018 mentioned that the Navy 
implemented 12 management initiatives, including expanded 
personnel authorities, revised contracting and procurement 
thresholds and provided business process relief. To our 
knowledge so far, you are the only service to use this 
authority.
    So, from you, I just wanted to ask, again, for the record, 
what kinds of implementation have you already seen in your 
STRLs with these authorities, and do you have suggestions on 
how it and any of the authorities given can be improved to 
facilitate quicker development and delivery of cutting-edge 
technologies to the warfighter?
    For Dr. Jette and Dr. Roper, I want to know, what is 
preventing the Army and the Air Force from also taking 
advantage of section 233 authorities?
    And then, Dr. Griffin, for you, finally, what can you do to 
better help and incentivize the services to use section 233 and 
other authorities to improve lab management and operations? 
Time doesn't permit for us to get to that--these right now, in 
this session right here, but I want those for the record, if 
you would please.
    [The information referred to can be found in the Appendix 
on page 93.]
    Mr. Langevin. With that, I will turn to the ranking member 
for final questions.
    Ms. Stefanik. Thank you.
    I wanted to follow up on my first line of questioning, Mr. 
Geurts, regarding additive manufacturing. You talked about the 
Department's understanding of how transformative this is to 
many of the challenges we face. Can you talk about how we can 
leverage private sector additive manufacturers and use their 
investments that they have made to benefit the Department?
    Secretary Geurts. Yes, ma'am. Just as a followup, we have 
already declared thousands of parts as 3D printable, certified 
for use. And so the first easy answer to that is then you go 
for the first provider who can provide that part at the best 
price, 3D printed, from wherever they live.
    So I think the first item is getting the parts certified 
for 3D printed, getting the specifications set for those, and 
then allowing the marketplace to compete and build those parts 
for us.
    As I said, we are also working on the networking and the 
R&D aspect of it. I am sorry the Representative left there. We 
have got $23 million in our 2020 budget in R&D just for the 
research and development of 3D printing technologies and $66 
million across the FYDP [Future Years Defense Program]. A lot 
of that is so we can network all of our 3D printed files 
together, create models.
    One of the challenges is how to certify a part where the 3D 
printed technology that has been certified traditionally. That 
is where that research is going. So those are two pretty close 
ones. And then we are the executive agent for a 3D printing 
center for the government, and we are using that as well to get 
to practical ways to get that out.
    And then I would comment that Dr. Jette's policies on 
intellectual property and 3D also play into this.
    Ms. Stefanik. Absolutely.
    I also wanted to give Dr. Roper an opportunity to comment 
because I know you have thought a lot about additive 
manufacturing and 3D printing from your perspective. Did you 
want to comment on my question?
    Secretary Roper. Yes, ma'am. When you are waiting months, 
sometimes years, for airplane parts, you think a lot about 
different ways to make them. It is making a huge difference 
already in the Air Force. We have certified broad swaths of 
parts that can be printed and put on aircraft. We are trying to 
go after certifying materials and machines so that even parts 
we haven't thought about can be made and certified and get a de 
facto air worthiness agreement.
    We created an entire permanent executive officer, a three-
star that is responsible for bringing in innovation into 
sustainment. That is 70 percent of our budget, and we are not 
focusing innovation there. So now we are starting to do that.
    They have transitioned 3D printing and additive 
manufacturing and additive repair into our depots. They have 
done other innovation and sustainment initiatives, like 
predictive maintenance, which is AI applied to maintenance.
    I think the thing I am seeing, Congresswoman, is that when 
you are pushing the fundamental science and engineering, that 
is something that is not being done in the broader ecosystem. 
Companies are holding onto their tradecraft, and since we don't 
own IP in the government, we are publishing everything we are 
doing and are having companies come to us to try to apply 
technologies that we have developed to their own individual 
investments.
    And I won't say the specific companies here, but I would be 
happy to share with you offline. But companies that are working 
on cutting-edge engines are coming to the Air Force to 
determine how are we printing high-temperature materials. And 
the reason that they know to come to us is that we publish our 
results. So I think the government can play a huge catalyst 
role in the broader ecosystem for additive just by driving the 
fundamental technology.
    And then, to Secretary Geurts' point, once we have our 
processes and certifications in place, we should let the market 
do its job, which is bring our prices down and get ultimate 
readiness up to the warfighter.
    Ms. Stefanik. Thank you for that.
    In my minute remaining, Dr. Griffin, I wanted to go back to 
you. Shifting gears, I wanted to ask about 5G. You have tapped 
your deputy, Dr. Lisa Porter, to spearhead the initiative in 
your Department. And there has been a lot of public debate on 
5G and what should be done to contain China's global influence 
in this space but little coverage on what more we need to do 
domestically to mature and deploy 5G technology.
    Can you talk about your Department's approach when it comes 
to 5G and specifically what we need to do to jump start our 
technology to compete in the 5G space?
    Secretary Griffin. Very briefly and we can--I am sorry. I 
can answer very briefly, and we can take more for the record.
    Yes, the R&E establishment in DOD has been assigned the 
lead for developing a DOD strategy, and as you mentioned, Dr. 
Porter has the baton for that.
    What needs to be understood, despite all the hype, is that 
5G is in its infancy everywhere in the world. It is in its 
infancy. It encompasses both standards and hardware, and much 
of that is hardware yet to be developed. The so-called Internet 
of Things depends upon the routine use of much shorter 
wavelengths, higher frequencies than is in common practice 
today.
    So there is a huge development challenge. There is a huge 
infrastructure build-out challenge. We will need--in comparison 
to, as a very rough number, 10,000 cell towers in the United 
States today, we will need north of 10 million cell towers or 
equivalent base stations. So there is an infrastructure build-
out challenge.
    DOD and the U.S. Government broadly can be part of the 
solution. We want to be. We think the part that we can play is 
in the development of some of those fundamental technologies. 
DARPA is the world leader in the development of millimeter wave 
technologies, the kinds of frequencies and wavelengths that we 
will need for 5G.
    So the technology end is one piece of it. Another piece of 
it is providing the testing ground, if you will, for how we are 
going to actually build out and deploy some of these things. 
Security is going to be--cybersecurity is going to be an 
extremely important part of this, and DOD can't afford to use 
any technology, no matter how attractive, if we can't make it 
secure.
    So offering to our developers, commercial developers, 
government developers, whatever, offering them the geography 
and the opportunities for experimentation, putting things into 
practice, prototype systems, without the necessity of gaining 
State, local, county permits to erect a tower, that could be 
extremely powerful.
    So, on those fronts, broadly speaking, I think is where our 
ability to contribute lies. It does not--it emphatically does 
not lie in having the DOD take custody of a national telecoms 
build-out, infrastructure build-out. That is not the right 
path.
    Ms. Stefanik. I wanted to just add one comment. You talked 
about how we can be and we want to be part of the innovation 
and solution when it comes to 5G. I want to add a note that I 
think we have to be when this is a global race for 5G 
technology. And as you correctly point out, the security risks, 
specifically the cybersecurity risks that come from 5G, it is 
incredibly important that we have a strategy to mature and 
deploy 5G technology that meets our security standards.
    And, with that, I yield back.
    Mr. Langevin. I thank the ranking member.
    I want to thank all of our witnesses for your testimony 
today. I ask that you follow up on the questions I posed at the 
end, and other members may have questions that they will submit 
for the record. And I ask you to try to get back us to with 
those answers in a timely manner.
    With that, thank you all for your testimony, the work that 
you are doing.
    This hearing stands in recess--adjourned, and now going 
into the closed session.
    [Whereupon, at 12:52 p.m., the subcommittee proceeded in 
closed session.]

     
=======================================================================

                            A P P E N D I X

                             March 28, 2019

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 28, 2019

=======================================================================

      
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 28, 2019

=======================================================================

      

            RESPONSES TO QUESTIONS SUBMITTED BY MR. LANGEVIN

    Secretary Griffin. First, I would like to thank this body for the 
authorities granted which have been extremely useful for the Defense 
Laboratories. These authorities have been implemented extensively 
across the Services, particularly those affecting Personnel, 
Infrastructure, and Technology Transfer. In the FY17 NDAA, Section 233 
provides an opportunity for the Services to consider and approve 
alternative and innovative methods which would provide eligible centers 
more flexibility to manage and operate research and development 
activities; facility management, construction and repair; business 
operations; personnel management policies and practices; and intramural 
and public outreach; as well as enable more rapid deployment of 
warfighter capabilities. To date, 18 methods were approved by Assistant 
Secretaries concerned (12 were approved for the Navy and 6 were 
approved for the Air Force). The Army is currently proposing one method 
for approval. The Military Departments expect to submit more 
initiatives for approval as they continue to work on streamlining 
internal departmental processes. The wider adoption of this authority 
and others is not a case where incentives are lacking, but rather a 
case where higher commands are prohibiting the use of the available 
authorities. Section 211 of the FY17 NDAA formally established the 
Laboratory Quality Enhancement Program (LQEP) which has facilitated the 
use of the authorities to convening quarterly to review policies and 
practices affecting the Science and Technology Reinvention Laboratories 
(STRLs). The panels for Personnel, Infrastructure, and Tech Transfer 
created as a result are charged with reviewing and reinterpreting 
existing statute and implementing regulations with emphasis on 
component policies that present barriers to innovation. Military 
Departments have used several authorities to fund minor MILCON projects 
that have greatly impacted the laboratories. Over the last three fiscal 
years, the Army has spent $211.2M; the Navy has spent $70.3M and the 
Air Force has spent $78.2M on minor MILCON. Funding for these projects 
was authorized by section 2363 (Mechanisms to Provide Funds for Defense 
Labs for Research and Development of Technologies for Military 
Missions) and section 2805d (Unspecified Minor MILCON). These 
authorities are vital to maintaining and modernizing the laboratories 
and warfare centers.   [See page 30.]
    Secretary Jette. The Army sees tremendous value in the pilot 
program under the Fiscal Year 2017 National Defense Authorization Act 
Section 233. In June 2017, ASA(ALT) established a policy that enables 
rapid adjudication of waivers submitted for the Section 233 program, 
and provided a mechanism for all Army labs to implement the waiver 
under the auspices of their command structure. Such an innovative 
program has taken some time to instill in the organization. But we have 
a significant number of pending waivers that are currently being 
considered.   [See page 30.]
    Secretary Geurts. The Navy has implemented Section 233 of the FY 
2017 NDAA in the following Navy Science and Technology Reinvention 
Laboratories (STRLs) as part of the pilot: Naval Sea Systems Warfare 
Centers; Naval Research Laboratory; Naval Air Warfare Center, Aircraft 
Division; Naval Air Warfare Center, Weapons Division; Naval Information 
Warfare Center, Atlantic; Naval Information Warfare Center, Pacific; 
and Naval Facilities Engineering and Expeditionary Warfare Center. The 
Navy's implementation approach has been in phases so as to best 
evaluate the impact. The first phase implemented 12 business 
operations, contracting and facility management initiatives on November 
16, 2017. The second phase has been comprised of initiatives in the 
following focus areas: business operations, personnel management 
policies and practices, and facility management construction and 
repair.
    The vetting of the initiatives with stakeholders is ongoing and 
will be incrementally implemented in three sprints.
    <bullet> Sprint I approved 12 contracting and facility management 
initiatives on March 5, 2019.
    <bullet> Sprint II will approve 10 Information Technology Purchase 
Request and Authority to Operate and business process initiatives in 
April 2019.
    <bullet> Sprint III to provide additional business process relief 
is targeted for approval later in CY 2019.
    The Navy has been looking at pilots in five focus areas: business 
operations, contracting, personnel management policies and practices, 
IT policies, and facility management construction and repair with 
benefits resulting in a 30 percent decrease in contract processing 
time, equivalent to 354,000 processing days saved. The Navy recommends 
extending the sunset clause beyond FY 2022 to at least FY 2025. This 
extension will allow time to incorporate lessons learned and to 
investigate new opportunities.   [See page 30.]
    Secretary Roper. I greatly appreciate the authorities that Congress 
has provided our Service laboratories over the last few years. The 
Section 233 authority is a powerful tool for our laboratory commander 
to remove barriers to innovation. I'm confident that we've worked 
through our internal challenges and have developed the level of 
advocacy we need to get proposals through the approval process. This 
will definitely enable the Air Force Research Laboratory to take full 
advantage of this authority. A new call for proposals recently went out 
by the Air Force Research Laboratory. After a review by the Commander 
of the Air Force Materiel Command, I look forward to seeing and 
approving the proposals when they reach my desk and hope to do so this 
year.   [See page 30.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. BROWN
    Secretary Griffin. From RPP: The Rapid Prototyping Program (RPP) 
began in 2017 and is DDR&E(AC)'s only enduring prototyping program with 
6.4 funds. Over these three years, 96% of RPP funding is associated 
with Service/Agency programs. Additional details here:
    FY 2017-2019 Total execution value $234.4M (FY17: $100M; FY18: 
$45M; FY19: $89.4M)
    Associated with Programs of Record: $223.9M/93% (FY17: $91.7M; FY18 
$42.8M; FY19: $89.4M)
    Not directly linked to a Program of Record: $10.5M/7% (FY17: $8.3 
FY18: 2.2M; FY19: 0)
    From RIF: 100% of the RIF program ($250M annually) is outside of a 
Program of Record (POR). The purpose of RIF is to insert emerging 
innovative technologies that DIRECTLY SUPPORT the National Defense 
Strategy (NDS), Modernization Priorities, and Component goals into DOD 
Programs of Record (POR). RIF leverages innovations from Phase II Small 
Business Innovative Research (SBIR), defense laboratories and other 
sources to enable PORs to insert new technology with minimal program 
disruption.'' Since 2011 RIF has invested $1.8B in over 800 projects, 
transitioning over 60% of successful projects into PORs, program 
requirement documents, or other Agency programs.
    From SCO: All of SCO's 6.4 work is similarly outside of PORs. SCO's 
mission is to identify, analyze, and prototype new and disruptive 
applications of existing and emerging systems, as well as near-term 
technologies, to create operational strategic effects, specifically: 
deterrence, power projection, cost imposition, surprise, and overmatch. 
The resulting prototyping projects--motivated primarily by INDOPACOM 
and EUCOM operational challenges--either transition to enhance existing 
PORs (e.g., buy down risk, prove out new missions/capabilities) or 
establish new PORs.   [See page 26.]
                                 ______
                                 
            RESPONSES TO QUESTIONS SUBMITTED BY MS. HOULAHAN
    Secretary Griffin. AI Efforts: The Department is moving across a 
broad front to engage and align the numerous efforts of our 
laboratories and agencies to increase our outreach to Universities for 
their key contributions. Basic research investments in applied 
mathematics will allow us to push the envelope on AI technology to 
enable capabilities that do not currently exist. First, new applied 
math methods might allow the Department to work with data sets that are 
not well curated. In essence, new methods are required to take optimal 
advantage of sparse data sets that are incomplete and noisy. Second, 
better understanding of cognitive neuroscience and biological neural 
nets may allow us to develop the next generation of AI that mimics the 
human or animal brain. Finally, both of the above activities will allow 
for the Department to generate AI that is more understandable to humans 
for optimal human-machine teaming. In the months leading up to the 
publication of our AI strategy in June 2018, the Department's research 
laboratories and agencies such as DARPA, as well as the intelligence 
community collaborated to forge a strategy. We have continued to 
develop and strengthen our engagement by using our Communities of 
Interest to host focused workshops on the impact of machine learning 
and AI to areas including: autonomy; Command, Control, Communications, 
Computers and Intelligence (C4I); and cyber. We have also reached out 
to our Allies including the UK, Australia, Canada, New Zealand, Japan, 
and Korea and found them ready to engage and align efforts in this key 
area. Through our Basic Research Offices, we continue to reach out with 
the Services and DARPA as part of the AI next campaign. We are also 
engaging with some Universities through FFRDCs including the Software 
Engineering Institute at Carnegie-Mellon and MIT Lincoln Laboratory 
where we are ramping up efforts. We are discussing with Universities 
the key role they can play in strengthening discipline of ``AI 
Engineering'', increasing the production of talented AI graduates, and 
contributing new ideas that greatly improve our ability to trust and 
understand AI systems. The Department is increasing scholarship 
offerings for those pursuing AI studies. And the Services are reaching 
out to Universities to establish new AI institutes.
    Additive Manufacturing: DOD's research and development community 
has multiple investments in advanced manufacturing under the 
Manufacturing Technology (ManTech) Program. ManTech is authorized by 
Section 2521 of Title 10, United States Code and is part of the 
USD(R&E) portfolio. ManTech, as an investment program, began in 1956 
and continues to this day with funding across USD(R&E), Army, Navy, Air 
Force, Defense Logistics Agency (DLA), and Missile Defense Agency 
(MDA). The other two funded investment programs in manufacturing are 
the Defense Production Act Title III, and the Industrial Base Analysis 
and Sustainment (IBAS) efforts, both managed by the Industrial Policy 
Office in the Office of the Under Secretary of Defense, Acquisition & 
Sustainment. DOD uses these accounts to address issues with the 
capability and capacity of our manufacturing industrial base. Within 
USD R&E DOD ManTech programs invest in individual manufacturing 
projects focused on bringing new manufacturing and production processes 
and systems to acquisition program managers, thus helping to bridge the 
gap between discovery and implementation of new capabilities for the 
warfighter. Sample projects funded out of the USD(R&E) Program Element 
include:
    <bullet>  Cold Spray Additive Repair
    <bullet>  High Temperature Engine Components (HighTEC)
    <bullet>  Micro Electro-Mechanical Systems (MEMS) Inertial 
Navigation System
    <bullet>  Manufacturing of Carbon-Carbon Composites for Hypersonic 
Applications (MOC3HA), and
    <bullet>  Vertical Cavity Surface Emitting Lasers
    The USD(R&E) ManTech investment uniquely supports the eight DOD 
manufacturing innovation institutes. DOD established the Manufacturing 
Innovation Institutes (MIIs) as public-private partnerships to address 
critical manufacturing risks, boost manufacturing innovation for the 
DOD, encourage re-development of US manufacturing capabilities, and 
provide an integrated whole-of-sector approach in each of eight 
technology-focused areas. To date, the DOD has invested over $600M to 
establish MIIs for additive manufacturing; lightweight and modern 
metals; digital manufacturing, design, and cybersecurity; integrated 
photonics; flexible hybrid electronics; revolutionary fibers and 
textiles; regenerative tissue manufacturing; and advanced robotics. DOD 
funding for the MIIs has engendered more than $1.6B in additional 
state, industry, and academic cost-share contributions that 
substantially improve the DOD return on investment.
    Since 2011, the DOD has invested $113.5 Million in research and 
development projects for Additive Manufacturing, sometimes also 
referred to as 3D Printing, in a public-private partnership with 
America Makes, the national AM innovation institute to advance the 
technology for DOD and the nation. Similar to 3DP, Additive 
Manufacturing (AM) is an emerging technology based on building up 
material using computer-controlled equipment to make sophisticated 
parts and assemblies. AM technology is used in sustainment to 
manufacture noncritical replacement parts in the field and support 
activities resulting in increased readiness and reduced operational 
problems on the front lines. AM enables the manufacturing of parts that 
weigh less and perform their functions better than those made with 
traditional subtractive techniques. DOD also established the Joint AM 
Steering and Working Group to work to foster coordination and 
collaboration between the Services and Defense Agencies. These groups 
seek to maximize the application of additive manufacturing in support 
of the warfighter and sustainers and promote AM-based designs where 
beneficial. These groups are tasked to: develop a DOD AM vision; 
disseminate information on DOD AM efforts throughout the Services and 
Components; provide recommendations for a joint AM investment strategy; 
identify and share AM best practices; and encourage joint approaches to 
accelerate AM qualification and certification.   [See page 25.]
    Secretary Griffin. Since 2011, the DOD has invested $113.5 million 
in research and development projects for Additive Manufacturing (AM), 
sometimes also referred to as 3D Printing, in a public-private 
partnership with America Makes, the national AM innovation institute to 
advance the technology for DOD and the nation. Similar to 3DP, AM is an 
emerging technology based on building up material using computer-
controlled equipment to make sophisticated parts and assemblies. AM 
technology is used in sustainment to manufacture non-critical 
replacement parts in the field and support activities resulting in 
increased readiness and reduced operational problems on the front 
lines. AM enables the manufacturing of parts that weigh less and 
perform their functions better than those made with traditional 
subtractive techniques. As a result of the America Makes partnership, 
the DOD developed a strategic roadmap for AM across the Department. 
Within the strategic roadmap, each Service maintains an AM 
implementation plan, which details specific actions and milestones to 
incorporate AM technologies through investments in AM research, 
development and deployment projects.
    The Services are also experimenting with the application of AM to 
mission critical parts. A full Report to Congress detailing these 
activities was provided in 2017 to the House and Senate Armed Services 
Committee. DOD is working to more effectively engage the universities 
and R&E labs in AM in a number of ways. Universities currently 
participate in AM as members or hosts of the Manufacturing Innovation 
Institutes and through ManTech funded projects. Universities such as 
Massachusetts Institute of Technology, SUNY Polytechnic Institute, 
Carnegie Mellon University, and University of Michigan are closely 
coupled with the non-profit organizations that operate the MIIs. They 
bring access to existing resources to support the federal investment in 
the MIIs. Other university members are engaged in the development of 
advanced manufacturing technology projects and the support of education 
and workforce development training and programs accessible to both the 
public and private sectors.   [See page 26.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. BANKS
    Secretary Griffin. Huawei has a strong market position, but the 5G 
ecosystem extends far beyond Huawei's market penetration. This 5G 
ecosystem has many parts and a specific claim about market penetration 
in any of these aspects is problematic. DOD's perspective is to provide 
for national security to create an environment where U.S. companies are 
free and empowered to do what they do best: innovate and globally 
collaborate to bring transformational products and services to the 
market.   [See page 20.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. WALTZ
    Secretary Griffin. We, in USD(R&E), are collectively taking best 
practices across the research and engineering enterprise such as SCO, 
DIU, the labs, and others and institutionalizing their missions while 
also utilizing pilot programs such as the Army Open Campus initiatives 
that leverage regional expertise and facilities to accelerate the 
discovery, innovation, and transition of science and technology in 
places like Boston MA, Chicago IL, Austin TX, and Playa Vista CA. 
Another example is the Navy innovation hub formed around NSWC Crane as 
an anchor technology driver that is in partnership with major regional 
universities (Indiana University, Purdue University, University of 
Southern Indiana, Notre Dame) and industry (defense, commercial, and 
non-profit).
    1) Bringing the Missions of Core DIU, NSIN, and NSIC Together
    In February 2019, OUSD(R&E) directed DIU to assume operational 
management of two entities: (1) NSIN, formerly known as MD5-National 
Security Technology Accelerator, and (2) NSIC, a new entity authorized 
in the John S. McCain NDAA for FY 2019. To avoid confusion as DIU 
assumes responsibility for three organizations, DIU uses the term 
``Core DIU'' to refer to the DIU activities focused on prototyping 
existing commercial solutions for DOD customers. Together, Core DIU, 
NSIN, and NSIC encompass the full range of technology readiness levels 
and create new opportunities for National Security Innovation Base 
(NSIB) participants to solve national security challenges. 
Consolidating these activities under DIU--and more broadly under 
OUSD(R&E)--will streamline operations, improve coordination, and foster 
growth in the NSIB. The graphic below depicts how core DIU, NSIN and 
NSIC will operate across the technology maturity spectrum and with 
different elements of the NSIB ecosystem. [The graphic referred to was 
not available at the time of printing.]
    2) Overview of DOD Innovation
    In February 2018, the DOD re-established the Office of the Under 
Secretary of Defense for Research and Engineering (OUSD(R&E)). This 
reorganization consolidated a number of organizations tasked with 
specialized yet complementary missions under OUSD(R&E) leadership to 
advance research and increase the speed of delivery and return on 
investment of new technologies and discoveries for the services and 
DOD.
    <bullet> DOD laboratories: Conduct basic and applied research on 
service-specific challenges.
    <bullet> DIU: Prototypes existing commercial solutions for DOD 
customers. It is also a member of a working group with the Defense 
Innovation Board (DIB) and NSIN to develop frameworks and paths for 
enhanced collaboration across the NSIB.
    <bullet> Strategic Capabilities Office (SCO): Creates near term 
strategic operational effects to support U.S. Indo-Pacific and European 
Command, using existing and emerging government and commercial systems.
    These three organizations are an example of the broader R&D 
ecosystem that the Department relies upon to provide superior 
technological capabilities to the warfighter, now and in the future.   
[See page 23.]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 28, 2019

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. CONAWAY

    Mr. Conaway. Thank you for taking the time to appear before the 
committee. With regards to the Citizens Broadband Radio Service and 
ensuring the most effective spectrum management, I have a few 
questions.
    a) Does DOD foresee any issues with the CBRS Spectrum Access System 
(SAS) [the SAS is tasked with protecting the higher tier users from 
harmful interference and assures efficient use of the 3.5 GHz band for 
everyone] and Environmental Sensing Capability (ESC) certification that 
could be a hurdle to a quick approval process?
    b) Has the DOD and FCC finalized the approval process for CBRS 
certification reports?
    c) The NTIA, DOD, and other Federal agencies have identified the 
3450-3550 MHz band for potential repurposing to spur commercial 
wireless innovation. What is the timeline for the DOD submitting a 
proposal under the Spectrum Pipeline Act of 2015 to study the potential 
for introducing advanced wireless services in this band without harming 
or interference with critical government operations?
    d) Is the NTIA or FCC considering the 3.1-3.45 GHz band for sharing 
with commercial operations as well? Are there dynamic techniques that 
can be used for more efficient spectrum sharing?
    Secretary Griffin. a) The Department has been proactively engaged 
in working with industry and the national regulators (i.e., FCC, NTIA) 
on this innovative sharing framework and see no hurdles to approval at 
this time. In general, the SAS/ESC construct is designed to not only 
protect DOD systems, but will enable mid-band 5G spectrum. Our work 
with WinnForum is a good example of the value of partnerships with 
industry and how trusted engineering can be used to assess the 
feasibility of a new sharing concept between federal and non-federal 
applications. We would defer any questions on the approval process 
regarding certifications to the national regulators (i.e., FCC).
    b) The approval process for CBRS certification reports has been 
established and we have a way forward. DOD looks forward to continuing 
to work in partnership with NTIA and FCC to conduct a comprehensive 
review of each ESC and SAS certification report to ensure each 
company's technical solution satisfies DOD requirements.
    c) DOD is engaging with other key stakeholders, including NTIA, 
FCC, and interested commercial entities, to define the scope of funding 
required for DOD under the Pipeline Act for specific activities that 
would potentially increase commercial access to the band on a shared 
basis.
    d) This sub-band is part of the 3100-3550 MHz range, for which the 
MOBILE NOW Act requires NTIA, in coordination with FCC, to submit a 
report to Congress, which is currently in development. DOD is 
supporting NTIA studies to determine the feasibility of sharing the 
band with a commercial system. We defer any specific questions on this 
effort to NTIA and FCC.
    Mr. Conaway. Thank you for taking the time to appear before the 
committee. With regards to the Citizens Broadband Radio Service and 
ensuring the most effective spectrum management, I have a few 
questions.
    a) Does DOD foresee any issues with the CBRS Spectrum Access System 
(SAS) [the SAS is tasked with protecting the higher tier users from 
harmful interference and assures efficient use of the 3.5 GHz band for 
everyone] and Environmental Sensing Capability (ESC) certification that 
could be a hurdle to a quick approval process?
    b) Has the DOD and FCC finalized the approval process for CBRS 
certification reports?
    c) The NTIA, DOD, and other Federal agencies have identified the 
3450-3550 MHz band for potential repurposing to spur commercial 
wireless innovation. What is the timeline for the DOD submitting a 
proposal under the Spectrum Pipeline Act of 2015 to study the potential 
for introducing advanced wireless services in this band without harming 
or interference with critical government operations?
    d) Is the NTIA or FCC considering the 3.1-3.45 GHz band for sharing 
with commercial operations as well? Are there dynamic techniques that 
can be used for more efficient spectrum sharing?
    Secretary Geurts. a) The Navy has expressed concerns about the 
potential risks and vulnerabilities related to the interoperability of 
the SAS platform. The Navy participated in multiple Service, joint and 
interagency working groups with DOD, FCC and NTIA to identify the risks 
that are most relevant to maritime operations. The Navy has provided 
input at all levels to shape the guidelines related to the ESC and SAS 
certifications.
    b) We defer to DOD and FCC on this question.
    c) We defer to DOD on this question. The Navy has participated in 
the planning of this effort and has submitted multiple proposals for 
feasibility studies, which are now informing the efforts of the lead 
organization for this project, NTIA. The Navy has and will continue to 
provide a member to the NTIA-led working group to advise on Navy 
equities and concerns.
    d) We defer to NTIA on this question. While the Navy is not 
currently included in NTIA's efforts for this study, the Navy stands 
ready and looks forward to the opportunity to collaborate with NTIA on 
a more strategic way forward that prioritizes projects as band-width 
allows.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. SCOTT
    Mr. Scott. Dr. Griffin, I appreciate the letter you sent to me on 
March 8, 2019. expressing support to Hacking for Defense, where you 
stated that programs like this ``provide clear value to the 
warfighter'' and ``stimulates the National Security Innovation Base.'' 
I was happy to see that your support of this program is reflected in 
the President's Fiscal Year 2020 budget request. Programs like this are 
key innovation programs within the Department of Defense because they 
not only work on real-world DOD problems but help produce real-world 
solutions for the Department.
    a. Given the success of Hacking for Defense, what other 
applications are available to support the DOD?
    b. Have we incorporated successful practices into other facets of 
the Department?
    Thank you for your attention to the subject.
    Secretary Griffin. From DIU: Hacking for Defense has been 
successfully delivered at more than 21 universities throughout the 
country, but it is only one of myriad programs offered by the DOD 
sponsor for Hacking for Defense, the National Security Innovation 
Network (NSIN; formerly MD5). In addition to Hacking for Defense, NSIN 
also manages and executes 13 other programs designed to combine DOD end 
users with students and faculty from top research universities and 
early stage ventures from commercial innovation hubs throughout the 
country. Among these are NSIN's ``Hacks'' program, which delivers 48-
hour hackathons focused on a DOD capability gap and includes transition 
funding to develop rapid prototypes of the Minimum Viable Products 
(MVPs) developed at the hackathon. Additionally, NSIN sponsors the 
Washington, DC-based ``Fed Tech'' program, which is designed to 
identify extant DOD Lab Technology that could answer a current DOD end 
user pain point, build an entrepreneurial team around it, and then 
launch a dual-use venture that can be added into the National Security 
Innovation Base (NSIB) and improve the technology transfer and 
transition (T3) rates of the DOD Labs. NSIN also leverages a network of 
more than 30 universities throughout the country to engage students and 
faculty in applied problem-solving to help enable the Department's 
modernization priorities by focusing on areas such as AI/ML, quantum 
computing, edge processing, advanced materials, and counter-drone 
measures. Applying the Hacking for Defense methodology to other areas 
of the Department is certainly worthy of further study; the most direct 
applications to other areas of the Department are probably in areas 
like advanced manufacturing and supply-chain management issues, both of 
which fall under the purview of the Office of the Under Secretary of 
Defense for Acquisition and Sustainment.
    Mr. Scott. In January 2018, the U.S. Army renewed a 10-year, $2.3 
billion dollar contract with Georgia Tech to assist the Department of 
Defense (DOD) with research and development and provide increased 
responsiveness to the nation's warfighters. I appreciate the addition 
of some of the nation's brightest STEM professionals in solving our 
toughest research problems.
    a. How effective have DOD partnerships with universities been to 
lighten the load of DOD research?
    b. Can you give a few specific examples of how our investments in 
universities have made impacts to today's warfighters?
    Secretary Jette. a. Army scientists and engineers work closely with 
academia to extend our core competencies across a number of 
disciplines, bringing together cutting-edge academic research with Army 
research staff who keep the collaboration oriented towards solving 
Army-relevant problems. This approach lightens the load of DOD research 
not only by leveraging academia's intellectual capital, but also their 
world-class facilities, instrumentation, and other infrastructure 
investments as well.
    b. The Army's investments in universities through Army Single 
Investigator Grants, University Affiliated Research Centers (UARCs), 
and other extramural programs have resulted in knowledge products that 
have impacted Army investments. For example, the Army's support of 
Nobel Prize winning research into ground-breaking methods to produce 
new enzymes directly led to commercial, cost-effective synthesis of 
biofuels for aviation platforms. Army support to universities has also 
resulted in the development of extended range munitions; informed 
development of next generation weapons; improved computer network 
defense; and resulted in advancements in vehicle armor.

                                  [all]
</pre></body></html>
